APPENDIX

TABLE OF APPENDICES
Appendix A: Opinion of the U.S. Court of Appeals for the
Eleventh Circuit (June 18, 2020) ........................................................... 1a
Appendix B: (Third) Amended Judgment of the U.S. District Court for the
Southern District of Florida (March 11, 2020) ...................................... 5a
Appendix C: Opinion of the U.S. Court of Appeals for the
Eleventh Circuit (May 8, 2019)............................................................ 11a
Appendix D: Order of the U.S. District Court for the
Southern District of Florida (May 9, 2017) ......................................... 41a

APPENDIX A

Case: 20-10990

Date Filed: 06/18/2020

Page: 1 of 4

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 20-10990
Non-Argument Calendar
________________________
D.C. Docket No. 0:16-cr-60054-BB-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
DAVID ROTHENBERG,
Defendant-Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(June 18, 2020)
Before MARTIN, BRANCH and HULL, Circuit Judges.
PER CURIAM:
David Rothenberg appeals the district court’s second and third amended
final judgments imposing a final restitution award. The government has moved for
summary affirmance and to stay the briefing schedule.

1a

Case: 20-10990

Date Filed: 06/18/2020

Page: 2 of 4

Summary disposition is appropriate, inter alia, where “the position of one of
the parties is clearly right as a matter of law so that there can be no substantial
question as to the outcome of the case, or where, as is more frequently the case, the
appeal is frivolous.” Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162 (5th
Cir. 1969).1 An appeal is frivolous if it is “without arguable merit either in law or
fact.” Napier v. Preslicka, 314 F.3d 528, 531 (11th Cir. 2002) (quotation marks
omitted).
“We review the legality of a restitution order in a child pornography case de
novo and the underlying factual findings for clear error.” United States v. Osman,
853 F.3d 1184, 1188
(11th Cir. 2017). We are bound by a prior panel opinion, even if it was wrongly
decided, unless and until the opinion’s holding is overruled or undermined to the
point of abrogation by the Supreme Court or our Court sitting en banc. See United
States v. Gillis, 938 F.3d 1181, 1198 (11th Cir. 2019).
In Rothenberg, this Court expressly rejected Rothenberg’s argument that the
district court was required to formally disaggregate the harms the victims suffered
as a result of the proliferation of images of their sexual abuse from the harms the
victims suffered as a result of the abuse itself. United States v. Rothenberg, 923

1

This Court adopted as binding precedent all Fifth Circuit decisions prior to October 1,
1981. Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th Cir. 1981) (en banc).
2

2a

Case: 20-10990

Date Filed: 06/18/2020

Page: 3 of 4

F.3d 1309, 1328-29, 1333-35 (11th Cir. 2019), cert. denied, 140 S. Ct. 812 (2020).
We recognized that a district court must “hold a defendant accountable only for his
own individual conduct and set a restitution amount that comports with the
defendant’s relative role in causing the victim’s general losses.” Id. at 1333
(quotation marks omitted). However, we held that “[h]ow [the] district court
arrives at that figure is largely up to the district court, so long as the number is a
reasonable and circumscribed award that is suited to the relative size of the
defendant’s causal role in the entire chain of events that caused the victim’s loss.”
Id. (quotation marks omitted). While rejecting Rothenberg’s disaggregation
argument and affirming the restitution awards to eight of Rothenberg’s nine
victims, this Court agreed that the restitution award to the ninth victim was not
supported by sufficient evidence, vacated that award, and remanded. Id. at 133840.
On remand, the district court stayed further proceedings pending resolution
of Rothenberg’s certiorari petition to the Supreme Court. In January 2020, the
Supreme Court denied Rothenberg’s petition. Subsequently, proceedings in the
district court resumed and both parties stipulated that a restitution hearing was
unnecessary. Rothenberg had no objection to the government’s $3,000 restitution
request for the remaining victim, “subject to his preservation with respect to the
disaggregation issue.” The district court then entered the final restitution order,
3

3a

Case: 20-10990

Date Filed: 06/18/2020

Page: 4 of 4

ordering him to pay a total of $103,000 in restitution to the nine victims.
Here, there is no substantial question as to the outcome of the case because
Rothenberg’s argument is foreclosed by precedent. See Groendyke Transp., Inc.,
406 F.2d at 1162. Rothenberg’s argument that the district court was required to
disaggregate the victims’ harms caused by the initial abuse from their harms
caused by the later traffic in images when determining the restitution amount is
foreclosed by our precedent in Rothenberg, which Rothenberg expressly concedes.
See Rothenberg, 923 F.3d at 1333-35. That precedent is binding. See Gillis, 938
F.3d at 1198. As the government points out, Rothenberg does not argue that the
district court on remand misapplied our Court’s precedent in Rothenberg, he just
preserves his argument on appeal disagreeing with our initial Rothenberg decision.
Therefore, because there is no substantial question that Rothenberg’s
argument is foreclosed by precedent, we GRANT the government’s motion for
summary affirmance. See Groendyke Transp., Inc., 406 F.2d at 1162.
Accordingly, we DENY the accompanying motion to stay the briefing schedule as
moot.

4

4a

APPENDIX B

USDC FLSD 245C (Rev. 09/08)- Amended Judgment in a Criminal Case

age I of 6

Case 0:16-cr-60054-BB Document 109 Entered on FLSD Docket 03/11/2020 Page 1 of 6

United States District Court
Southern District of Florida
FT. LAUDERDALE DIVISION

v.

THIRD AMENDED JUDGMENT IN A
CRIMINAL CASE
Case Number16-60054-CR-BLOOM

DAVID ROTHENBERG

Amendment includes agreed-upon restitution

UNITED STATES OF AMERICA

USM Number: 12997-104
Counsel for Defendant: Jan Smith, Esq., AFPD
Counsel for The United States: Anita White, Esq., AUSA
Court Reporter: Tammy Nestor

Date of Original Judgment: August 26, 2016
Reason for Amendment: Scrivener’s error on Restitution amount
Please see page 5
The defendant pleaded guilty to Count Six of the Superseding Indictment.
The defendant is adjudicated guilty of the following offense:

TITLE/SECTION
NUMBER
18 U.S.C. § 2252(a)(4)(b)

NATURE OF
OFFENSE
Possession of material
involving the sexual
exploitation of minors

OFFENSE ENDED

COUNT

February 20, 2016

Six

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed pursuant to the
Sentencing Reform Act of 1984 .
All remaining Counts are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must notify the court and United States attorney of any material changes in economic
circumstances.

Date of Imposition of Sentence: 8/26/2016

____________________________________________
Beth Bloom
United States District Judge

Date: 3/11/2020

5a

Case 0:16-cr-60054-BB Document 109 Entered on FLSD Docket 03/11/2020 Page 2 of 6
USDC FLSD 245C (Rev. 09108) • Amended Judgment in a Criminal Cue

Page 2 of 6

DEFENDANT: DAYID ROTHENBERG
CASE NUMBER: 0:16-60054-CR-BLOOM

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a term of
210 months as to Count Six of the Superseding Indictment

The defendant is remanded to the custody of the United States Marshal.
The Court recommends a Federal facility in South Florida.

RETURN
I have executed this judgment as follows:

Defendant delivered on

--------- to---------------

at

,with a certified copy of this judgment.

UNITED STATES MARSHAL
By:

_
Deputy U.S. Marshal

6a

Case 0:16-cr-60054-BB Document 109 Entered on FLSD Docket 03/11/2020 Page 3 of Page
6 3 of 6
USDC FLSD 245C (Rev. 09/08) - Amended Judgment in a Criminal Case

DEFENDANT: DAYID ROTHENBERG
CASE NUMBER: 0:16-60054-CR-BLOOM1

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of life. Within 72 hours of
release, the defendant shall report in person to the probation office in the district where released.
While on supervised release, the defendant shall not commit any crimes, shall be prohibited from possessing a firearm
or other dangerous devices, shall not possess a controlled substance, shall cooperate in the collection of DNA, and shall comply
with the standard conditions of supervised release and with the special conditions listed on the attached page.

STANDARD CONDITIONS OF SUPERVISION
I.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

The defendant shall not leave the judicial district without the permission of the court or probation officer;
The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen days of each
month;
The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
The defendant shall support his or her dependents and meet other family responsibilities;
The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other acceptable
reasons;
The defendant shall notify the probation officer at least ten (10) days prior to any change in residence or employment;
The defendant shall refrain from the excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled
substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a felony,
unless granted permission to do so by the probation officer;
The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view by the probation officer;
The defendant shall notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law enforcement officer;
The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant's criminal record
or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the defendant's
compliance with such notification requirement.

7a

Case 0:16-cr-60054-BB Document 109 Entered on FLSD Docket 03/11/2020 Page 4 of 6
USDC FLSD 24SC (Rev, 09/08)- Amended Judgment in a Criminal Case

Page 4 of 6

DEFENDANT: DAVID ROTHENBERG
CASE NUMBER: 0:16-60054-CR-BLOOM1

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall also comply with the following additional conditions of supervised release:
Adam Walsh Act Search Condition - The defendant shall submit to the U.S. Probation Officer conducting periodic unannounced
searches of the defendant's person, property, house, residence, vehicles, papers, computer(s), other electronic communication or
data storage devices or media, include retrieval and copying of all data from the computer(s) and any internal or external
peripherals and effects at any time, with or without warrant by any law enforcement or probation officer with reasonable suspicion
concerning unlawful conduct or a violation of a condition of probation or supervised release. The search may include the retrieval
and copying of all data from the computer(s) and any internal or external peripherals to ensure compliance with other supervision
conditions and/or removal of such equipment for the purpose of conducting a more thorough inspection; and to have installed on
the defendant's computer(s), at the defendant's expense, any hardware or software systems to monitor the defendant's computer
use.
Computer Possession Restriction - The defendant shall not possess or use any computer; except that the defendant may, with
the prior approval of the Court, use a computer in connection with authorized employment.
Credit Card Restriction - The defendant shall not possess any credit cards, nor shall he be a signer on any credit card obligations
during his term of supervision, without the Court's approval.
Data Encryption Restriction - The defendant shall not possess or use any data encryption technique or program.
Employer Computer Restriction Disclosure - The defendant shall permit third party disclosure to any employer or potential
employer, concerning any computer-related restrictions that are imposed upon the defendant.
Financial Disclosure Requirement - The defendant shall provide complete access to financial information, including disclosure
of all business and personal finances, to the U.S. Probation Officer.
No Contact with Minors - The defendant shall have no personal, mail, telephone, or computer contact with children/minors under
the age of 18 or with the victims.
No Contact with Minors in Employment-The defendant shall not be employed in a job requiring contact with children under
the age of 18 or with the victims.
No Involvement in Youth Organizations - The defendant shall not be involved in any children's or youth organization.
No New Debt Restriction - The defendant shall not apply for, solicit or incur any further debt, included but not limited to loans,
lines of credit or credit card charges, either as a principal or cosigner, as an individual or through any corporate entity, without
first obtaining written permission from the United States Probation Officer.
Relinquishment of Licensure - Upon request of the appropriate regulatory agency, the defendant shall relinquish his license to
said agency. The defendant is on notice that such relinquishment is permanent and will be considered disciplinary action.
Restricted from Possession of Sexual Materials-The defendant shall not buy, sell, exchange, possess, trade, or produce visual
depictions of minors or adults engaged in sexually explicit conduct. The defendant shall not correspond or communicate in
person, by mail, telephone, or computer, with individuals or companies offering to buy, sell, trade, exchange, or produce visual
depictions of minors or adults engaged in sexually explicit conduct.
Sex Offender Treatment - The defendant shall participate in a sex offender treatment program to include psychological testing
and polygraph examination. Participation may include inpatient/outpatient treatment, if deemed necessary by the treatment
provider. The defendant will contribute to the costs of services rendered (co-payment) based on ability to pay or availability of
third party payment.
Sex Offender Registration - The defendant shall comply with the requirements of the Sex Offender Registration and Notification
Act (42 U.S.C. § 16901, et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration
agency in which he or she resides, works, is a student, or was convicted of a qualifying offense.

8a

USDC 0:16-cr-60054-BB
FLSD 24SC (Rev. 09/08)- Amended Sudgmenl
in a Criminal Cue 109
Case
Document
Entered on FLSD Docket 03/11/2020 Page 5 of 6page 5 of 6

DEFENDANT: DAVID ROTHENBERG
CASE NUMBER: 0:16-60054-CR-BLOOM- l

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on the Schedule of
Payments sheet.
Total Assessment

Total Fine

Total Restitution

$100.00

$

$103,000.00

It is further ordered that the defendant shall pay restitution in the amount of $103,000,00. During the period of incarceration,
payment shall be made as follows: (1) if the defendant earns wages in a Federal Prison Industries (UNICOR) job, then the
defendant must pay 50% of wages earned toward the financial obligations imposed by this Judgment in a Criminal Case; (2) if
the defendant does not work in a UNICOR job, then the defendant must pay a minimum of$25.00 per quarter toward the financial
obligations imposed in this order.
Upon release of incarceration, the defendant shall pay restitution at the rate of I 0% of his monthly gross earnings, until such time
as the court may alter that payment schedule in the interests of justice. The U.S. Bureau of Prisons, U.S. Probation Office and
U.S. Attorney's Office shall monitor the payment of restitution and report to the court any material change in the defendant's
ability to pay. These payments do not preclude the government from using other anticipated or unexpected financial gains, assets
or income of the defendant to satisfy the restitution obligations. The restitution shall be made payable to Clerk, United States
Courts, and forwarded to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 N. MIAMI AVENUE, ROOM 8N09
MIAMI, FLORIDA 33128
The restitution will be forwarded by the Clerk of the Court to the victims in this case.

*Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18, United States Code, for offenses committed on
or after September 13, 1994, but before April 23, 1996.

9a

Page 6 of 6

USDC FLSD 245C (Rev. 09/08) - Amended Judgment in a Criminal Case

Case 0:16-cr-60054-BB Document 109 Entered on FLSD Docket 03/11/2020 Page 6 of 6
DEFENDANT: DAVID ROTHENBERG
CASE NUMBER: 0:16-60054-CR-BLOOM1

SCHEDULE OF PAYMENTS
Having assessed the defendant's ability to pay, payment of the total criminal monetary penalties are due as follows:
A. Lump sum payment of$100.00 due immediately.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties
is due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons'
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.
The assessment/fine/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 8N09
MIAMI, FLORIDA 33128-7716
The assessment/fine/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the U.S.
Attorney's Office are responsible for the enforcement of this order.

The defendant's right, title and interest to the property identified in the preliminary order of forfeiture, which has been entered
by the Court and is incorporated by reference herein, is hereby forfeited.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

10a

APPENDIX C

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

923 F.3d 1309
United States Court of Appeals, Eleventh Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
David ROTHENBERG, Defendant-Appellant.
No. 17-12349
|
May 8, 2019
Synopsis
Background: Defendant pleaded guilty in the United States District Court for the Southern District of Florida, No. 0:16cr-60054-WJZ-1, to possession of child pornography. Defendant appealed his sentence.

Holdings: The Court of Appeals, Hull, Circuit Judge, held that:
[1] district court ensured that its child pornography restitution order related only to amount of harm and loss caused;
[2] government was not required to show that child pornography victim was aware of, and specifically harmed by, particular
defendant possessor's conduct for court to impose child pornography restitution award;
[3] signed declaration from victim's counsel provided sufficient evidence to support victim's restitution request;
[4] district court did not abuse its broad discretion in awarding restitution amount of $ 5,000; and
[5] district court abused its discretion in determining there was sufficient evidence to support other victim's restitution request
of $ 42,600.
Affirmed in part, reversed in part, and remanded.
Procedural Posture(s): Appellate Review; Sentencing or Penalty Phase Motion or Objection.
West Headnotes (26)
[1]

Sentencing and Punishment

Factors related to offender

Sentencing and Punishment

Factors related to victim

In determining a restitution amount for child pornography possession, a defendant should pay restitution in an amount
that comports with the defendant's relative role in the causal process that underlies the victim's general losses. 18
U.S.C.A. § 2259.
1 Cases that cite this headnote
[2]

Criminal Law

Review De Novo

11a

11a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

1

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

Criminal Law

Sentencing

The Court of Appeals reviews de novo the legality of a restitution order, but reviews for clear error the factual findings
underlying that order.

[3]

Criminal Law

Restitution

The Court of Appeals reviews the amount of a district court's restitution award only for an abuse of discretion.
1 Cases that cite this headnote
[4]

Criminal Law

Discretion of Lower Court

A district court abuses its discretion if it applies an incorrect legal standard, follows improper procedures, or makes
clearly erroneous findings of fact.

[5]

Criminal Law

Discretion of Lower Court

The abuse of discretion standard recognizes that the district court has a range of choices, and the Court of Appeals
will not reverse the district court's choice as long as its decision does not amount to a clear error of judgment.

[6]

Criminal Law

Sentencing

Sentencing and Punishment

Factors or Purposes in General

When considering whether a district court appropriately exercised its sentencing discretion in light of the statutory
sentencing factors, the Court of Appeals evaluates whether the district court failed to consider relevant factors,
improperly weighed the relevant factors, or considered improper factors, and ultimately assess whether, under the
totality of the circumstances, the sentence is reasonable.

[7]

Criminal Law

18 U.S.C.A. § 3553(a).

Sentencing

The Court of Appeals considering whether a district court appropriately exercised its sentencing discretion in light of
the statutory sentencing factors will vacate a sentence imposed by the district court only if it is left with the definite
and firm conviction that the district court committed a clear error of judgment in weighing the statutory sentencing
factors by arriving at a sentence that lies outside the range of reasonable sentences dictated by the facts of the case.
18 U.S.C.A. § 3553(a).

[8]

Sentencing and Punishment

Sufficiency

In sentencing cases, the Court of Appeals does not require district courts to make detailed findings or give a thorough
explanation for the sentence it chose; specifically, the district court need not state on the record that it has explicitly
considered each factor and need not discuss each factor, so long as the record reflects the court's consideration of
many of those factors, and therefore an acknowledgment by the district court that it has considered the defendant's
arguments and the statutory sentencing factors will suffice.

[9]

Criminal Law

18 U.S.C.A. § 3553(a).

Restitution

12a

12a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

2

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

Criminal Law

Restitution

In evaluating a child pornography restitution award, an appellate court must determine whether the district court
appropriately exercised its broad discretion in light of the facts of the particular case and awarded restitution in an
amount that comports with the particular defendant's conduct. 18 U.S.C.A. § 2259.

[10]

Criminal Law

Restitution

In reviewing a child pornography restitution award, the Court of Appeals should consider, in light of the factors listed
in Paroline v. United States, 572 U.S. 434, 460, 134 S.Ct. 1710, 188 L.Ed.2d 714, whether the district court arrived
at a restitution amount that lies within the general range of reasonable restitution awards dictated by the facts of the
case; in doing so, the Court of Appeals should give due deference to the district court's determination that the Paroline
factors, on the whole, justify the restitution amount awarded and should not vacate an award unless left with the
definite and firm conviction that the district court committed a clear error of judgment in setting the award amount.
18 U.S.C.A. § 2259.

[11]

Criminal Law

Restitution

Sentencing and Punishment

Findings and statement of reasons

So long as the district court acknowledges that it has considered the factors listed in
Paroline v. United States, 572
U.S. 434, 460, 134 S.Ct. 1710, 188 L.Ed.2d 714, and the defendant's arguments regarding restitution, the Court of
Appeals reviewing a child pornography restitution award will not vacate a restitution award solely on the basis that
the district court did not address each factor explicitly. 18 U.S.C.A. § 2259.

[12]

Sentencing and Punishment

Findings and statement of reasons

District court ensured that its child pornography restitution order related only to amount of harm and loss caused by
defendant possessor by explicitly finding up front that there was no evidence with respect to any victim that defendant
had reproduced or distributed images of victim or that he had connection to initial production of images, expressly
stating that it had considered factors listed in
Paroline v. United States, 572 U.S. 434, 460, 134 S.Ct. 1710, 188
L.Ed.2d 714, in assigning relative role to defendant as proximate cause of victims’ losses, and reiterating that defendant
neither created nor distributed victim's image. 18 U.S.C.A. § 2259.

[13]

Sentencing and Punishment

Factors related to offense

A district court imposing a child pornography restitution award is not required to determine, calculate, or disaggregate
the specific amount of loss caused by the original abuser-creator or distributor of child pornography before it can
decide the amount of the victim's losses caused by the later defendant who possesses and views the images. 18 U.S.C.A.
§ 2259.
2 Cases that cite this headnote
[14]

Sentencing and Punishment

Considerations in Fixing Amount

How a district court in imposing a child pornography restitution award arrives at a figure that comports with the
defendant's relative role in causing the victim's general losses is largely up to the district court, so long as the number
is a reasonable and circumscribed award that is suited to the relative size of the defendant's causal role in the entire
chain of events that caused the victim's loss. 18 U.S.C.A. § 2259.

13a

13a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

3

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

[15]

Sentencing and Punishment

Findings and statement of reasons

In imposing a child pornography restitution award, the factors listed in
Paroline v. United States, 572 U.S. 434,
460, 134 S.Ct. 1710, 188 L.Ed.2d 714, of whether the defendant had any connection to the initial production of the
images and whether the defendant reproduced or distributed images of the victim do not require that the district court
make fact findings about the amount of losses caused by different groups of offenders. 18 U.S.C.A. § 2259.

[16]

Sentencing and Punishment

Cause of loss in general

In imposing a child pornography restitution award, a district court should ensure that its restitution order relates only
to the amount of harm and loss caused by the defendant possessor. 18 U.S.C.A. § 2259.
2 Cases that cite this headnote
[17]

Sentencing and Punishment

Factors related to offender

Sentencing and Punishment

Factors related to victim

In imposing a child pornography restitution award, a district court is not required to perform an initial, formal step
of calculating and then separately assigning a total loss amount to the initial abuser, then one to the distributors and
possessors generally, and only then one to the particular defendant possessor; rather, even if a victim's total loss
estimate includes losses caused both by the original abuser-creator, the distributors, and other possessors, the district
court need only indicate in some manner that it has considered that the instant defendant is a possessor, and not the
initial abuser or a distributor, and has assigned restitution based solely on the defendant possessor's particular conduct
and relative role in causing those losses. 18 U.S.C.A. § 2259.

[18]

Sentencing and Punishment

Cause of loss in general

Sentencing and Punishment

Considerations in Fixing Amount

In imposing a child pornography restitution award, a district court in a possessor case is not required to take on the
job of determining the harm and loss caused by the initial abuser or the distributors; rather, the district court's job is to
determine the defendant possessor's causal role in the general losses caused by his participation in the ongoing traffic
in the victim's images. 18 U.S.C.A. § 2259.

[19]

Sentencing and Punishment

Other particular factors

Sentencing and Punishment

Findings and statement of reasons

In imposing a child pornography restitution award, a district court is not required to say why it did not follow or
disagreed with restitution orders as to the same victim imposed by other courts; rather, the number of past criminal
defendants and their restitution amounts, even as to the same victim, are just one of many factors the district court
considers generally without having to make mathematical calculations. 18 U.S.C.A. § 2259.

[20]

Sentencing and Punishment

Factors related to victim

Government was not required to show that child pornography victim was aware of, and specifically harmed by,
particular defendant possessor's conduct for court to impose child pornography restitution award. 18 U.S.C.A. § 2259.

14a

14a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

4

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

1 Cases that cite this headnote
[21]

Sentencing and Punishment

Cause of loss in general

Sentencing and Punishment

Actual loss

Sentencing and Punishment

Other particular amount-related matters

To impose a child pornography restitution award, the government need establish only that the victim suffered losses
from the traffic in her images and that the defendant contributed to those losses by possessing her images, regardless
of whether the victim was specifically aware of the defendant's conduct. 18 U.S.C.A. § 2259.
1 Cases that cite this headnote
[22]

Sentencing and Punishment

Degree of proof

The government bears the burden of proving the child pornography restitution amount by a preponderance of the
evidence, and it must do so with evidence bearing sufficient indicia of reliability to support its probable accuracy;
nevertheless, because the determination of the restitution amount is by nature an inexact science, a district court may
accept a reasonable estimate of the loss based on the evidence presented. 18 U.S.C.A. § 2259.

[23]

Sentencing and Punishment

Amount, value

Signed declaration from victim's counsel, stating that victim's future medical costs likely would exceed $ 100,000
based on counsel's experience representing eight other, similarly situated child pornography victims, provided
sufficient evidence to support victim's $ 5,000 child pornography restitution request. 18 U.S.C.A. § 2259.

[24]

Sentencing and Punishment

Admissibility

Expert medical or psychological reports would be helpful to district court in fashioning child pornography restitution
award, but they were not only way to establish reasonable estimate of victim's losses. 18 U.S.C.A. § 2259.

[25]

Sentencing and Punishment

Factors related to offender

Sentencing and Punishment

Factors related to victim

Sentencing and Punishment

Other particular amount-related matters

District court did not abuse its broad discretion in awarding victim her requested child pornography restitution amount
of $ 5,000, where defendant possessed one image of victim, no other defendant had yet been ordered to pay restitution
to victim, victim had estimated losses exceeding $ 100,000, and defendant neither created nor distributed victim's
images. 18 U.S.C.A. § 2259.

[26]

Sentencing and Punishment

Amount, value

District court abused its discretion in determining there was sufficient evidence to support victim's child pornography
restitution request of $ 42,600; although defendant was responsible for some, possibly significant amount of victim's
losses as result of 34 images and 1 video being distributed and evidence was sufficient to show that victim had incurred
costs of $ 17,600 to pay for expert reports and legal fees in connection with her restitution request, reliance on Masha's
Law or on proposed legislation did not provide much guidance, and imposing pre-set minimum amount of restitution

15a

15a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

5

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

based solely on type of offense defendant committed was not sufficient to establish what proportion of victim's asyet-undetermined total losses defendant proximately caused.

18 U.S.C.A. §§ 2255(a), 2259.

Attorneys and Law Firms
*1312 Tonya R. Long, Assistant U.S. Attorney, Jane Mackenzie Duane, Duane Mackenzie, Emily M. Smachetti, U.S. Attorney
Service - Southern District of Florida, U.S. Attorney Service - SFL, MIAMI, FL, for Plaintiff-Appellee.
Andrew L. Adler, Jan Christopher Smith, II, Federal Public Defender's Office, FORT LAUDERDALE, FL, Michael Caruso,
Federal Public Defender, Federal Public Defender's Office, MIAMI, FL, for Defendant-Appellant.
Appeal from the United States District Court for the Southern District of Florida, D.C. Docket No. 0:16-cr-60054-WJZ-1.
Before ED CARNES, Chief Judge, and ROSENBAUM and HULL, Circuit Judges.
Opinion
HULL, Circuit Judge:
*1313 After his guilty plea to possession of child pornography, David Rothenberg appeals from the district court's restitution
order requiring him to pay a total of $142,600 in restitution to nine victims depicted in the images of child pornography that he
possessed. Section 2259 mandates that district courts order defendants “to pay the victim ... the full amount of the victim's losses”
as determined by the court. 18 U.S.C. § 2259. This case involves the question of how to calculate the amount of restitution a
possessor of child pornography, like the defendant Rothenberg, must pay to a victim whose childhood sexual abuse appears in
the pornographic images he possessed but did not create or distribute.
On appeal, Rothenberg argues that: (1) the district court's restitution order is flawed as to all of the victims because it failed
to calculate and then disaggregate the victim's losses caused by the initial abuser, distributors, and other possessors from those
caused by Rothenberg himself; and (2) as to eight of the victims, the restitution award is not supported by competent evidence.
After review, and with the benefit of oral argument, we conclude that the district court was not required to calculate and
disaggregate the victim's losses in the manner Rothenberg suggests and that reliable evidence supports the restitution awards
as to eight victims, but not as to one victim. We thus affirm the restitution amounts as to eight victims and vacate and remand
as to one victim.

I. INDICTMENT AND GUILTY PLEA
Defendant Rothenberg used to be a lawyer, a fact he told an undercover officer in an internet chatroom called “daddaughtersex.”
Rothenberg also sent the officer videos of child pornography and bragged that he was sexually exploiting a young girl at his
house. In 2016, local and federal law enforcement went to Rothenberg's house and rescued the young girl, who confirmed that
Rothenberg had engaged in sexual activity with her. The officers also found and seized Rothenberg's laptop, which contained
approximately 1,000 unique video and picture files of child pornography. Some of those images depicted prepubescent children
under the age of 12, and some portrayed sadistic and masochistic conduct, such as the binding and gagging of minor children.
In 2016, a grand jury charged Rothenberg with: (1) four counts of distribution of child pornography, in violation of

18 U.S.C.

§ 2252(a)(2) &

18 U.S.C.

(b)(1) (Counts 1, 3, 4, and 5); (2) one count of receipt of child pornography, in violation of

16a

16a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

6

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

§ 2252(a)(2) &

(b)(1) (Count 2); and (3) one count of possession of child pornography depicting a minor under the age of

12, in violation of
18 U.S.C. § 2252(a)(4)(B) &
(b)(2) (Count 6). Pursuant to a written plea agreement, Rothenberg pled
guilty to the possession offense in Count 6, and the government agreed to dismiss the receipt and distribution charges in Counts
1 through 5. The district court sentenced Rothenberg to 210 months’ imprisonment.
On appeal, Rothenberg does not challenge his guilty plea or sentence. Rather, Rothenberg challenges only the district court's
restitution order granting a total of $142,600 to nine victims, which consists of: (1) $10,000 to Sierra; (2) $3,000 to Jane; (3)
$5,000 to Pia; (4) $5,000 to Mya; (5) $20,000 to Sarah; (6) $9,000 to Vicky; (7) $23,000 to Amy; (8) $42,600 to Jenny; and
(9) $25,000 to Casseaopeia. We outline the thorough process the district court followed, the evidence submitted, and then the
district court's findings and conclusions.

II. RESTITUTION PROCEEDINGS
After sentencing, the district court considered restitution requests pursuant to *1314 18 U.S.C. § 2259(a), which provides for
mandatory restitution to child pornography victims. Generally, the process worked as follows. First, the government identified
the individual victims depicted in the images of child pornography found on Rothenberg's computer and notified them or
their attorneys of the upcoming restitution hearing. Then a victim's attorney submitted a restitution request and supporting
documentation to the government. Next, the government determined whether to support that request or ask the district court for
a different amount. Rothenberg could agree to the request, try to negotiate down with the government or the victim's attorney,
or challenge the request before the district court.
Eventually the government submitted restitution requests on behalf of ten victims, all of whom were identified in at least one
of the images of child pornography from Rothenberg's computer. One of the victims, “Angela,” later withdrew her request,
leaving nine requests at issue for the hearing.
A. Pre-Hearing Memoranda
[1] Prior to the restitution hearing, both parties submitted lengthy memoranda addressing (1) how the restitution determination
should be made, and (2) what the award should be for each victim. The government and Rothenberg agreed that the Supreme
Paroline v. United States, 572 U.S. 434, 134 S. Ct. 1710, 188 L.Ed.2d 714 (2014), governed how the
Court's decision in
restitution awards should be made, established a proximate cause requirement, and set forth a variety of factors for district courts
to consider in determining the proper amount of restitution. Under
Paroline’s proximate causation requirement, a defendant
should pay restitution “in an amount that comports with the defendant's relative role in the causal process that underlies the
victim's general losses.”

Paroline, 572 U.S. at 458, 134 S. Ct. at 1727.

But the parties disagreed about how exactly to apply the

Paroline factors and how to calculate and determine that amount.

The government recognized that, under
Paroline, the district court must impose restitution in an amount that reflects the
particular defendant's relative role in the continuing traffic in the child pornography images of the victim. The government
proposed that the district court make that calculation by using a variation of what is known as the “1/n method,” whereby the
court would divide the total amount of each victim's losses by the number of defendants, across multiple prosecutions, who
had been ordered to pay restitution to the victim. The government submitted that this method would provide the district court
a starting point from which to exercise its discretion in determining the appropriate amount of restitution vis-à-vis Rothenberg,
as only a possessor of images of child pornography.

17a

17a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

7

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

Rothenberg argued, by contrast, that the starting point should be “apportionment between the original abuser of the child, versus
the distributor, and later, possessor of the pornography,” which Rothenberg referred to as “disaggregation.” Rothenberg asserted
that this disaggregation requires two steps: first, the district court must separate the harm caused by the original abuser from
that caused by later distributors and possessors; and second, the district court must separate the harm caused by the defendant
from that caused by other distributors or possessors.
Below, we detail for each victim (1) the victim's restitution request and supporting evidence, (2) the government's position, and
then (3) Rothenberg's position.
*1315 B. Sierra
Sierra submitted a restitution request for $10,000. In support of her request, Sierra submitted a medical letter from Dr.
Sharon W. Cooper, a forensic pediatrician, based on her December 2015 evaluation of Sierra. Dr. Cooper explained that
victims of child pornography can experience physical, emotional, and spiritual issues as a result of their online exploitation,
including immunological problems, posttraumatic stress disorder (“PTSD”), anxiety, depression, suicidal ideation, and feelings
of hopelessness. Dr. Cooper noted that “[w]hen images are known to be in distribution, the pre-existing dysfunction caused
by the initial abuse is typically worsened, since children remain at risk for further victimization by the ongoing downloading,
trading and possession of their images.”
With respect to Sierra specifically, Dr. Cooper stated that Sierra's medical evaluation showed she suffered from worsening
insomnia, attention deficit hyperactivity disorder (“ADHD”), depression, suicidal ideation, PTSD, and mood lability. Dr. Cooper
noted that, despite being on five different medications, Sierra's condition remained unstable and she recently required emergency
treatment for suicidality. Dr. Cooper opined that “[t]he ongoing presence of trafficking in images [of Sierra] on the Internet
constitutes a significant aspect of psychological maltreatment that will add on to the initial adversities” caused by the original
abuse. Based on Sierra's past medical history, the documented adversities faced by victims of child sexual abuse and child
pornography offenses, and Sierra's present medical symptoms, Dr. Cooper estimated a total cost of $661,453.00 for Sierra's
future medical care.
Sierra's counsel also submitted a declaration of attorney's fees, indicating Sierra had incurred nearly $5,000 in attorney's fees
in connection with this case.
The government supported Sierra's $10,000 restitution request. The government observed that four other defendants had been
ordered to pay restitution to victims in the same series of images as Sierra. Those awards were for $4,000, $1,000, $9,000,
and $2,000.
Rothenberg opposed Sierra's restitution request. Rothenberg noted that he possessed only one image of Sierra 1 and that the
requested restitution amount was more than double the average of Sierra's prior awards ($4,000). Rothenberg argued that Sierra's
restitution materials made no attempt at disaggregation and that the government provided no information to demonstrate the
relative amount of Sierra's harm caused by his conduct.
C. Jane
Jane submitted a restitution request for $3,000. In support of her request, Jane submitted a victim impact statement, a
psychological report, and an economic report. In her victim impact statement, Jane specifically described how the online trade
in her child pornography images had affected and would continue to affect her. Jane explained: “Knowing people are watching
what happened gives me a mix of anxiety, sadness, anger and it disgusts me. ... If it wasn't out there, I wouldn't be as fearful as
I am now.” Jane elaborated that the circulation of her images made her feel afraid and unsafe because she worried that someone
who had seen her images online might recognize her and try to harm her. Jane felt that her future would not be “very bright”
and would be lonely because *1316 the existence of her images online made her socially isolated.

18a

18a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

8

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

Jane's psychological evaluation was performed by Dr. Jennifer Clark in December 2014 “to determine the psychological effects
of her continuous re-victimization in the form of Internet pornographic images and videos of her being exchanged and viewed.”
Dr. Clark opined that the online trade in Jane's images was currently impacting her, causing her great fear and anxiety and
leaving her feeling unsafe and vulnerable. Dr. Clark observed that the trade in Jane's images would continue to impact her in
the future by exacerbating her “deep sense of mistrust in others” from the original abuse and hindering her healing and recovery
process. Dr. Clark explained: “[Jane's] awareness of the ongoing presence and distribution of [her] images will remain an ever
present trigger to memories of what happened and a source of fear for her safety, and thus, ongoing psychological distress.
Therefore, Jane will require therapy throughout her life. ... Given that much of Jane's distress manifests in somatic symptoms
and physiological distress, she likely will also seek and need significant medical attention in the future.”
Jane's economic evaluation estimated that she would have future medical and therapy costs of $101,027, and lost wages of
between approximately $1.9 and $3.9 million.
The government agreed that Jane's $3,000 restitution request was appropriate. The government noted that seven other defendants
had been ordered to pay restitution to Jane. Three of those seven defendants were ordered to pay $1,000, two were ordered to
pay $2,500, one was ordered to pay $3,000, and one was ordered to pay $500.
Rothenberg disputed Jane's requested amount and argued that a restitution amount of $800 would be appropriate. Rothenberg
noted that he possessed four images of Jane and that the average award to Jane from the prior cases was $1,642. Rothenberg
acknowledged that Jane's restitution materials were “the best of all provided to attempt disaggregation,” but argued his
possession did not warrant a $3,000 award when compared with other defendants. Specifically, Rothenberg noted that one of the
prior cases with a $1,000 restitution order involved distribution, and three of the other cases involved receipt of Jane's images.
D. Pia
Pia submitted a restitution request for $5,000. In support of her request, Pia submitted an interim impact statement from Dr.
Marsha Hedrick, who conducted a forensic psychological evaluation of Pia, a declaration of attorney's fees, and a victim impact
statement from Pia's mother. Dr. Hedrick noted that Pia experienced anxiety, nightmares, suspiciousness, and sadness and was
emotionally withdrawn. Dr. Hedrick explained that “[s]eparating the extent to which these difficulties are related to sexual abuse
by her father versus her awareness that her sexual abuse is being viewed by others is not entirely possible,” but it was clear
internet exploitation adds a layer of complexity to the psychological damages victims of child sexual abuse face. Indeed, Dr.
Hedrick noted that Pia's mother had explained to Pia there was no way to remove from the internet the images of her sexual
abuse, resulting in “a level of suspiciousness and concern about exploitation that is atypical for Pia's peers” and likely caused
Pia to experience feelings of powerlessness. Dr. Hedrick estimated the cost of Pia's therapy needs as $81,900, but explained
that estimate reflected only the “current, most critical needs” for Pia and there was no way to know what the full extent of her
losses would be over the course of her lifetime.
*1317 The government concurred in Pia's $5,000 restitution request. The government did not have information on any other
defendants that were ordered to pay restitution to Pia, but Pia's counsel advised one other defendant was ordered to pay
restitution.
Rothenberg disputed Pia's requested amount and instead proposed a restitution award of $1,100. Rothenberg contended there was
“no real attempt at disaggregation” in Pia's restitution documents, but agreed some amount of restitution was appropriate based
on the number of images (14) he possessed of Pia. Rothenberg reasoned that $1,100 was appropriate because the government
had requested $2,000 in restitution for Jenny (discussed below), and he possessed half as many images of Pia as he had of Jenny.
E. Mya
Mya submitted a restitution request of $5,000. In support of her request, Mya's counsel submitted a restitution cover letter and
declarations from both of her attorneys. Mya's counsel represented that they were still awaiting the results of Mya's psychological

19a

19a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

9

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

evaluation, but that other similarly situated child pornography victims they had represented had psychological treatment costs
exceeding $100,000. Mya's counsel stated that Mya was aware of the existence of her images on the internet and “the knowledge
that others have witnessed and even enjoyed [her] abuse is extremely upsetting to [her].” Counsel further represented that Mya
was distrustful of other people and was at risk of being stalked or victimized by individuals who had seen her images online.
Counsel also represented that they had expended $2,077.44 thus far in representing Mya and two other victims in the same
series (one of whom was victim Pia, discussed above), and anticipated total legal costs of $30,000 for those three victims.
The government did not concur in Mya's $5,000 restitution request. The government noted that there was no information on
whether other defendants were ordered to pay restitution to Mya and determined that “[g]iven that [Rothenberg] possessed a
single image of Mya and the future medical costs have not yet been established,” a restitution award of $500 was appropriate.
The government stated that amount was neither trivial nor too severe.
Rothenberg argued there was no sufficient basis for awarding any restitution to Mya given the lack of information regarding
her future medical costs. Rothenberg also noted that he made an offer to Mya's counsel to pay the $500 amount the government
sought, but that offer was rejected.
F. Sarah
Sarah submitted a restitution request of $25,000. In support of her request, Sarah submitted, among other things, a cover letter,
a victim impact statement, a 2014 psychological evaluation by Dr. Randall Green, and an economic report. In the cover letter,
Sarah's counsel represented that her requested restitution amount of $25,000 would be “less than 1%” of her total losses and
that 327 other defendants were ordered to pay restitution to Sarah.
In her victim impact statement, Sarah explained that she worried that people who had seen her images online would “come
after” her and try to victimize her in the same way her original abuser had. Sarah elaborated: “Every time someone else sees
pictures or videos of me it feels like they are the ones who hurt me to begin with. ... It is like I am just here for other people's
pleasure and am not a person myself with my own wants and needs.” Sarah stated that her fear prevented her from leaving the
house by herself and from engaging in other normal activities like *1318 going to school, having a job, or socializing with
more than a few people.
In his psychological evaluation, Dr. Green assessed “the impact and injuries caused by the discovery and daily awareness
that multiple individuals are viewing images of sexual crimes being perpetrated against [Sarah] as a child.” As part of his
assessment, Dr. Green interviewed Sarah and also performed various psychological tests. Based on these sources of information,
Dr. Green opined that “the discovery of multiple downloaders and distributors of her images effectively exponentially multiplied
in [Sarah's] mind the number of sick and dangerous males ‘out there’ who might ... do her harm.” Dr. Green explained that
Sarah's knowledge of the dissemination of her child pornography images online caused her daily psychological damage in the
form of fear “that has reached a paranoid-like level of intensity.” Dr. Green determined that Sarah required “extensive and
intensive therapy” for the trauma caused by both the original abuse and the continuing traffic in her images. Dr. Green estimated
the costs of Sarah's future psychiatric care were between $265,710 and $303,150.
Sarah's counsel reported that Sarah had incurred $31,433.77 in attorney's fees. The economic assessment for Sarah estimated
a minimum of approximately $1.9 million in lost wages over her lifetime.
The government did not concur in Sarah's $25,000 restitution request and instead requested an award of $7,895 based on its
1/n calculation method. The government also provided a list of 155 prior restitution awards to Sarah, which ranged from $0
at the low end to $51,500 at the high end.
Rothenberg opposed Sarah's restitution request. Rothenberg cited three other cases involving Sarah in which the government
presented the same restitution evidence and the courts found the government failed to establish proximate cause. Rothenberg

20a

20a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

10

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

argued that the government provided no evidence to disaggregate the harm proximately caused by his possession of six images
of Sarah from that caused by the other defendants in the list it had provided.
G. Vicky
Vicky submitted a restitution request of $10,000. In support of her request, Vicky submitted several victim impact statements,
several psychological reports from Dr. Green, an economic report, and a statement of attorney's fees. In her victim impact
statements, Vicky described the effects of the ongoing distribution of the images of her sexual abuse as a child, including feelings
of fear and paranoia, nightmares, and panic attacks. In a 2014 psychological status report, Dr. Green opined that Vicky continued
to require therapy as a result of the continuing traffic in her images, as well as her discovery of attempts by some viewers
of her images to invade her privacy. Dr. Green explained that Vicky continued to experience anxiety, dissociative responses,
social withdrawal, anger, feelings of powerlessness, and sleep disruption. Dr. Green estimated Vicky's total therapy costs to be
between $108,975 to $113,600.
The economic report estimated Vicky's net lost wages over the course of her lifetime to be $828,150. Vicky's counsel represented
that Vicky had incurred attorney's fees and costs of $92,371.96.
The government did not concur in Vicky's $10,000 request and instead requested an award of $1,283 using its 1/n method. The
government provided a list of 659 other restitution awards to Vicky, which ranged from approximately $24 at the low end to
$1 million at the high end.
Rothenberg opposed Vicky's restitution request for the same reasons he opposed *1319 Sarah's request, noting that other courts
had denied restitution requests based on the same evidence and that the government failed to disaggregate. Rothenberg also
noted that he possessed only one image of Vicky and that the average post-

Paroline restitution award to Vicky was $3,632.

H. Amy
Amy submitted a restitution request of $25,000. In support of her request, Amy provided a victim impact statement, several
psychological evaluations from Dr. Joyanna Silberg, and an economic report. In her victim impact statement, Amy stated that
she “live[s] in constant fear that someone will see [her] pictures and recognize [her].” Amy expressed feelings of powerlessness
related to the traffic in the images of her sexual abuse as a child because “the crime has never really stopped and will never
really stop.” Amy explained that she experienced fear, shame, and humiliation at the thought of her friends and other people
she encounters discovering her images online.
In a December 2014 report, Dr. Silberg opined that although Amy had made strides as a result of an intensive treatment plan
initiated in 2012, ongoing issues related to PTSD remained. Dr. Silberg explained that Amy continued to experience flashbacks
and nightmares, as well as “fear about the internet and shame associated with the ongoing viewing of her picture.” Dr. Silberg
concluded that Amy “continues to suffer from the ongoing effects of her victimization from child abuse and from the continued
use of her image by child pornography traders, viewers, and abusers,” and recommended continued psychological treatment and
monitoring. Amy's economic report estimated her net lost wages as $2,855,173, and her future counseling costs as $512,681.
The government did not concur in Amy's $25,000 request and instead requested a restitution amount of $15,664 using its 1/
n method. The government provided a list of 215 other restitution awards to Amy, ranging from $50 at the low end to $3.5
million at the high end.
Rothenberg opposed Amy's restitution request. Rothenberg noted that he possessed only one image of Amy and that the average
post- Paroline restitution award to her was $3,891. Rothenberg asserted that the government's list of prior restitution orders
was inaccurate as to some of the awards and argued that the government made no attempt to disaggregate his conduct from
that of other defendants.

21a

21a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

11

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

I. Jenny
Jenny submitted a restitution request of $42,600. In support of her request, Jenny submitted a victim impact statement and a
cover letter from her counsel. In her victim impact statement, Jenny stated that she worried about the images of her sexual abuse
that were “out there” and feared being recognized in public. Jenny expressed a strong desire to forget the abuse she had suffered
but explained that “[w]ith the pictures still out there I can't.”
In their cover letter, Jenny's counsel represented that this was Jenny's seventh restitution request. Counsel stated that they were
still in the process of obtaining expert reports for Jenny, but asserted that “such formal reports” were not necessary for the
district court to determine restitution. Counsel discussed a proposed bill which would set a $25,000 minimum restitution award
for child pornography possession offenses, and represented that Jenny had costs of $5,100 for legal and attorney's fees and
$12,500 for the preparation of expert reports. Because these three items totaled $42,600, Jenny's counsel contended *1320
that $42,600 amount was the appropriate restitution amount for Jenny.
The government did not concur in Jenny's $42,600 restitution request and instead requested a restitution award of $2,000. The
government emphasized that Rothenberg possessed 34 images and one video of Jenny but noted the lack of documentation
to support Jenny's restitution request. The government pointed out that one other defendant was ordered to pay restitution to
Jenny in the amount of $7,500.
Rothenberg likewise noted the lack of evidence supporting Jenny's $42,600 restitution request. Nevertheless, based on the
number of images of Jenny he possessed, Rothenberg agreed that the government's requested amount of $2,000 was reasonable.
J. Casseaopeia
Casseaopeia submitted a restitution request of $25,000. In support of her request, Casseaopeia provided a victim impact
statement, a psychological report from Dr. Joyce Vesper, and an economic assessment. In her victim impact statement,
Casseaopeia described her ongoing victimization as a result of the online trade in her child pornography images. Casseaopeia
stated that she worried the people viewing her images would seek her out and harm her. She explained that she suffers from
anxiety, which makes it hard for her to work or go out in public, and experiences panic attacks when she thinks someone
recognizes her from the internet. Casseaopeia further explained that the continuing traffic in her images made recovery from
her PTSD and depression more difficult and “prevent[ed] the wound from healing.”
In her September 2015 psychological report, Dr. Vesper described her clinical interview with Casseaopeia and the psychological
tests she administered. From these assessments, Dr. Vesper concluded that Casseaopeia was “tortured by constant memories
of childhood sexual abuse” and experienced “constant head chatter, graphic flashbacks, [and] panic attacks that are so
overwhelming they feel like heart attacks.” Dr. Vesper described Casseaopeia as living “in constant fear that the people viewing
the pornographic films and pictures of her” online would capture her and subject her to the same abuse all over again. Dr.
Vesper opined that “[w]ithout the appropriate psychotherapy to address [her] dissociation, depersonalization, derealization,
amnesia, anxiety and depression,” Casseaopeia would continue to experience flashbacks, nightmares, and depression. Dr. Vesper
recommended intensive psychotherapy for Casseaopeia. In a supplemental report, Dr. Vesper specifically addressed the effects
on Casseaopeia of the ongoing traffic in her images. Dr. Vesper explained that Casseaopeia experienced persistent anxiety that
people she knows will see on the internet images of her sexual abuse as a child and that this anxiety affects her recovery process.
The economic assessment estimated Casseaopeia had economic damages totaling $1,078,159, including $748,438 in lost earning
capacity and $329,721 in future medical expenses.
The government requested a slightly lower restitution award of $21,563 for Casseaopeia, which was calculated using the 1/n
method. The government noted that 49 other defendants were ordered to pay restitution to Casseaopeia and submitted a list of
those prior awards. Those prior awards ranged from $0 at the low end to $50,000 at the high end.

22a

22a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

12

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

Rothenberg opposed Casseaopeia's restitution request. Rothenberg noted that he possessed only two images of Casseaopeia
and that the average restitution award to her was $3,974. Rothenberg argued that, *1321 like many of the other requests, the
government did not differentiate between the harm he caused and that caused by other perpetrators. Rothenberg contended that
Dr. Vesper's report primarily dealt with effects of the original abuse rather than the traffic in Casseaopeia's images.
K. Restitution Hearing
On November 18, 2016, the district court held a restitution hearing. At the restitution hearing, the government submitted the
evidence on which its restitution requests were based, all of which was admitted into evidence. 2 That evidence consisted of 891
pages of exhibits submitted by the victims and charts prepared by the government listing each victim's prior restitution awards
in other federal cases. The exhibits included the declarations, psychological evaluations, letters, and other evidence referenced
in the government's restitution requests. Rothenberg noted, at the outset of the hearing, that he agreed with the government's
requested award of $2,000 to Jenny and therefore did not offer any argument as to that award. The remaining requests were
disputed, and the parties essentially reiterated the arguments raised in their prior memoranda as to those victims.

III. COURT'S RESTITUTION ORDER
Six months later, on May 9, 2017, the district court issued its restitution order. After outlining in detail Paroline’s framework
(and expressing some frustration with its inexactitude), the district court analyzed each victim's restitution request. As a
preliminary matter, the district court stated that, with respect to each victim, it had assigned restitution in a manner that comported
with Rothenberg's relative role and only for damages he proximately caused. The district court explicitly explained that it had
not “attempted to hold [Rothenberg] responsible for all losses sustained by any victim.” Furthermore, the district court expressly
noted there was no evidence that Rothenberg was connected to the initial abuse of any of the victims or that he had reproduced
or distributed their images. Instead, Rothenberg was a possessor only. And the district court specifically stated that it had “taken
these factors into consideration in assigning [Rothenberg] a relative role as the proximate cause of these victims’ losses.”
Turning to the specific awards, the district court determined that Sierra's $10,000 request was reasonable. The district court
found that: (1) Rothenberg possessed one image of Sierra; (2) a small number of criminal defendants had paid restitution to
Sierra; (3) Sierra's current mental health condition was severe; and (4) Sierra's projected costs of care exceeded $600,000. The
district court found “in consideration of her large amount of total costs, the small number of contributing offenders, and a
request for a proportion of these costs proximately caused and to be paid by [Rothenberg], who neither created nor distributed
her image, that $10,000 is a reasonable request under the

Paroline analysis and factors.”

Next, the district court determined that Jane's $3,000 request was reasonable. The district court found that: (1) Rothenberg
possessed four images of Jane; (2) a small number of criminal defendants had paid restitution to Jane; (3) Jane's victim impact
statement specifically addressed how the existence of her images on the internet *1322 affected her and isolated the harm
caused by possessors and distributors from that caused by the original abuse; and (4) Jane's estimated medical and therapy costs
were $101,027. The district court found “in consideration of her medical costs, the small number of contributing offenders, and
a request for a proportion of these costs to be paid by [Rothenberg], who neither created nor distributed her images, that $3,000
is a reasonable request under the

Paroline analysis and factors.”

The district court then determined that Pia's $5,000 request was reasonable. The district court found that: (1) Rothenberg
possessed 14 images of Pia; (2) there was no evidence regarding the number of other criminal defendants ordered to pay
restitution to Pia, though Pia's counsel indicated that one other defendant was so ordered; and (3) Pia's estimated therapy costs
over the next 20 years totaled $81,900. The district court found “in consideration of her total costs, the fact that she has only
received restitution from one other defendant, the large number of images possessed by [Rothenberg] of [Pia], and a request

23a

23a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

13

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

for a proportion of these costs to be paid by [Rothenberg], who neither created nor distributed her images, that $5,000 is a
reasonable request under the

Paroline analysis and factors.”

The district court also determined that Mya's $5,000 request was reasonable, despite the government's requested amount of
only $500. The district court found that: (1) Rothenberg possessed one image of Mya; (2) there was no indication as to whether
any other criminal defendants were ordered to pay restitution to Mya; and (3) Mya's counsel indicated a reasonable treatment
estimate for Mya would be more than $100,000. The district court found “in consideration of her total costs, the fact that she
has not received any restitution at this time, and a request for a proportion of these costs to be paid by [Rothenberg], who neither
created nor distributed her images, that $5,000 is a reasonable request under the

Paroline analysis and factors.”

As to Sarah, the district court determined that an award of $20,000–$5,000 less than Sarah's requested amount—was reasonable.
The district court explained that: (1) Rothenberg possessed six images of Sarah; (2) over 150 criminal defendants were ordered
to pay restitution to Sarah; (3) Sarah's victim impact statement explicitly addressed how the existence of her images on the
internet affected her, thereby isolating the harm caused by possession of her images from that caused by the original abuse; and
(4) Sarah's estimated cost of psychiatric care was nearly $300,000. The district court found, “in consideration of the amount of
costs, the fact that many other offenders have been required to pay restitution to [Sarah]—which in the case of Sarah, the Court
finds contributes to a finding that the request is reasonable and acknowledged by many other courts—the large number of images
possessed of [Sarah], and a request for a proportion of these costs proximately caused and to be paid by [Rothenberg], who
neither created nor distributed her image[s], that $20,000 is an appropriate amount under the

Paroline analysis and factors.”

In a similar vein, the district court determined that for Vicky, $9,000–$1,000 less than Vicky's requested $10,000 amount—
was a reasonable award. The district court found that: (1) Rothenberg possessed one image of Vicky; (2) more than 600, and
possibly more than 800, other criminal defendants were ordered to pay restitution to Vicky; (3) Vicky's victim impact statement
specifically addressed how the online traffic in her images affected her and explained the distinct harm *1323 caused by
possessors and distributors of her images; and (4) Vicky's predicted therapy costs exceeded $100,000. The district court found
“in consideration of the amount of costs, the fact that many other offenders have been required to pay restitution to [Vicky]—
which in the case of Vicky, the Court finds contributes to a finding that the request is reasonable and acknowledged by many
other courts—and a request for a proportion of these costs proximately caused and to be paid by [Rothenberg], who neither
created nor distributed her image, that $9,000 is an appropriate amount under the

Paroline analysis and factors.”

The district court likewise awarded a reduced amount to Amy. The district court noted that Amy requested $25,000 and that
the government requested $15,664, but the district court ultimately determined that $23,000 was reasonable. The district court
explained that: (1) Rothenberg possessed one image of Amy; (2) more than 200 criminal defendants had paid restitution to Amy;
(3) Amy's victim impact statement “provide[d] strong support for the different and separate harm that possessors proximately
cause to victims such as [herself]”; and (4) Amy's counseling and therapy costs could exceed $500,000. The district court found
“in consideration of the large amount of costs, the fact that other offenders have been required to pay restitution to [Amy]—
which, again, in the case of Amy, the Court finds contributes to a finding that the request is reasonable and acknowledged by
other courts—and a request for a proportion of these costs proximately caused and to be paid by [Rothenberg], who neither
created nor distributed her image, that $23,000 is an appropriate amount under the

Paroline analysis and factors.”

Regarding Jenny, the district court acknowledged that both the government and Rothenberg agreed that $2,000 was an
appropriate amount, but that Jenny requested $42,600. The district court determined that Jenny's requested amount was
reasonable. The district court emphasized that (1) Rothenberg possessed 34 images and one video of Jenny, and (2) only one
other defendant had paid restitution to Jenny. The district court conceded there was “less documentation of Jenny's psychological
and medical expenses as compared with some other victims in this case,” but found that the $2,000 amount requested by the
parties was insufficient. Considering “the extremely large number of images [Rothenberg] possessed of [Jenny], her costs, the
fact that only one other defendant has so far contributed to these costs, and a request for a proportion of these costs to be paid

24a

24a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

14

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

by [Rothenberg], who neither created nor distributed her images, the Court finds that $42,600 is a reasonable request under
the

Paroline analysis and factors.”

Lastly, as to Casseaopeia, the district court determined that her requested award of $25,000 was reasonable, even though the
government requested only $21,563. The district court found that: (1) Rothenberg possessed two images of Casseaopeia; (2)
more than 50 criminal defendants were ordered to pay her restitution; and (3) her projected costs of care exceeded $300,000.
Considering “her costs, the number of contributing offenders, and a request for a proportion of these costs proximately caused
and to be paid by [Rothenberg], who neither created nor distributed her image,” the district court found that “$25,000 is a
reasonable request under the

Paroline analysis and factors.”

In total, the district court ordered Rothenberg to pay $142,600 in restitution, to be apportioned to the nine victims in the amounts
set out above. On appeal, Rothenberg argues that the district court erred as to all nine restitution awards. We begin *1324 with
the restitution statute and then review the Supreme Court's

Paroline decision, which both parties agree governs this appeal.

IV. 18 U.S.C. § 2259
Congress has mandated that district courts award restitution to victims of certain federal crimes, including child pornography
possession. See 18 U.S.C. § 2259(a) (2012). 3 The possessor of child pornography must pay restitution to the victim whose
childhood abuse appears in the pornographic materials he possessed. See id. § 2259(b)(1), (c)(4). The statute requires that “[t]he
order of restitution ... shall direct the defendant to pay the victim ... the full amount of the victim's losses as determined by
the court.” Id. § 2259(b)(1). The statute defines the term “full amount of the victim's losses” to include any costs incurred by
the victim for:
(A) medical services relating to physical, psychiatric, or psychological care;
(B) physical and occupational therapy or rehabilitation;
(C) necessary transportation, temporary housing, and child care expenses;
(D) lost income;
(E) attorneys’ fees, as well as other costs incurred; and
(F) any other losses suffered by the victim as a proximate result of the offense.
Id. § 2259(b)(3) (emphasis added). The statute defines a victim as “the individual harmed as a result of the commission of a crime
under this chapter.” Id. § 2255(c)(4) (emphasis added). A court may not decline to issue restitution because of the economic
circumstances of the defendant or because the victim has received compensation from another source. See id. § 2259(b)(4)(B).
“The burden of demonstrating the amount of the loss sustained by a victim as a result of the offense shall be on the attorney for
the Government.” Id.
§§ 3664(e), 2259(b)(2) (emphasis added). In
Paroline, the Supreme Court addressed the meaning
of “as a result of” and “proximate result” in § 2259 and precisely what type of causal connection or proximate cause must exist
between the victim's losses and the defendant's offense. We review

Paroline next.

V. SUPREME COURT'S PAROLINE DECISION

25a

25a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

15

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

Like this case,

Paroline involved a possessor of child pornography images in wide circulation on the internet. In

Paroline,

the defendant was a possessor and not a distributor or the initial abuser. See 572 U.S. at 439, 134 S. Ct. at 1716. The Supreme
Court grappled with the question of what causal relationship must be established between a defendant possessor's conduct and
a victim's losses for purposes of determining the right to, and the amount of, restitution under § 2259.

Id. As a preliminary

matter, the Supreme Court interpreted § 2259’s statutory language to impose a general proximate-cause limitation.
Id. at
448, 134 S. Ct. at 1721. The Supreme Court determined that “[r]estitution is therefore proper under § 2259 only to the extent
the defendant's offense proximately *1325 caused a victim's losses.”

Id. at 448, 134 S. Ct. at 1722.

The difficulty, the Supreme Court explained, comes in applying that causation requirement in a particular child pornography
case.

Id. at 449, 134 S. Ct. at 1722. This is so because of the “somewhat atypical causal process underlying the losses [a

child pornography] victim claims.”

Id. The Supreme Court reasoned that it may be “simple enough” for a victim to prove the

aggregate losses that stem from the ongoing traffic in her images as a whole.
Id. Importantly, the Supreme Court observed
that it is more difficult to determine “the ‘full amount’ of those general losses, if any, that are the proximate result of the offense
conduct of a particular defendant who is one of thousands who have possessed and will in the future possess the victim's images
but who has no other connection to the victim.”

Id.

Therefore, in child pornography possession offenses, the
Paroline Court recognized that it would be virtually impossible to
show that the defendant possessor was a but-for cause of any particular portion of the victim's losses “where the defendant is an
anonymous possessor of images in wide circulation on the Internet.”
Id. at 450-51, 134 S. Ct. at 1722-23. Nevertheless, the
Supreme Court observed that “[w]hile it is not possible to identify a discrete, readily definable incremental loss [a defendant
possessor] caused, it is indisputable that [the defendant possessor] was a part of the overall phenomenon that caused [the victim's]
general losses.”

Id. at 456-57, 134 S. Ct. at 1726. And it would undermine the purposes of § 2259 to deny restitution in cases

involving possessors of child pornography.

Id. at 456-58, 134 S. Ct. at 1726-27.

The Supreme Court also recognized that the original abuse crime is compounded by the distribution and possession of images
of the victim's original abuser's “horrific acts, which meant the wrongs inflicted on her were in effect repeated; for she knew
her humiliation and hurt were and would be renewed into the future as an ever-increasing number of wrongdoers witnessed the
crimes committed against her.”
Id. at 441, 134 S. Ct. at 1717. It does not matter that the victim does not know the name of
the possessor because the losses do not flow from any specific knowledge of him; rather, the cause of the victim's losses “is
the trade in her images.”
Id. at 456, 134 S. Ct at 1726. The Supreme Court also observed that “the victim suffers continuing
and grievous harm as a result of her knowledge that a large, indeterminate number of individuals have viewed and will in the
future view images of the sexual abuse she endured.”
pornography is a repetition of the victim's abuse.”
is the trade in her images.”

Id. at 457, 134 S. Ct. at 1726. “In a sense, every viewing of child

Id. at 457, 134 S. Ct. at 1727. “The cause of the victim's general losses

Id. at 456, 134 S. Ct. at 1726.

After rejecting a but-for test for proximate cause, the
Paroline Court adopted a causation-in-fact standard for cases where:
(1) “a defendant possessed a victim's images”; (2) “a victim has outstanding losses caused by the continuing traffic in those
images”; and yet (3) “it is impossible to trace a particular amount of those losses to the individual defendant by recourse to
a more traditional causal inquiry.”
Id. at 458, 134 S. Ct. at 1727. In that situation, the Supreme Court concluded that a
defendant possessor of child pornography should be ordered to pay restitution “in an amount that comports with the defendant's

26a

26a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

16

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

relative role in the causal process that underlies the victim's general losses.” Id. The Supreme Court explained that the award
“would not be severe” in a case where the possessor is only one of many thousands of offenders, but also would not be “a token
*1326 or nominal amount.”

Id. at 458-59, 134 S. Ct. at 1727. Rather, the required restitution would be “reasonable and

circumscribed” and “suited to the relative size of [the defendant's] causal role.”

Id. at 459, 134 S. Ct. at 1727.

Further, the Supreme Court instructed, there is no “practical way to isolate some subset of the victim's general losses that [the
possessor]

Paroline’s conduct alone would have been sufficient to cause.”

Id. at 451, 134 S. Ct. at 1723. In

Paroline,

the defendant possessor was one of thousands who possessed the victim's images. Id. at 450, 134 S. Ct. at 1723. The Supreme
Court stressed that even though the victim does not know the possessor, the victim's “knowledge that her images were circulated
far and wide renewed the victim's trauma and made it difficult for her to recover from her abuse.” Id. at 440, 134 S. Ct. at 1717.
“While it is not possible to identify a discrete, readily definable incremental loss he [the possessor] caused, it is indisputable that
Id. at 456-57, 134 S. Ct. at 1726. In other words,
he was a part of the overall phenomenon that caused her general losses.”
the defendant possessor of the images caused in fact part of the general losses, even if “it is impossible to trace a particular
amount of those losses to the individual defendant.”
The

Id. at 458, 134 S. Ct. at 1727.

Paroline Court then turned to the question of how district courts are to determine the proper amount of restitution in

these “possessor” cases. Id. As a general matter, the Supreme Court stated that a district court “must assess as best it can from
available evidence the significance of the individual defendant's conduct in light of the broader causal process that produced the
victim's losses.” Id. at 459, 134 S. Ct. at 1727-28. The Supreme Court emphasized that this “cannot be a precise mathematical
inquiry,” but rather involves the exercise of “wide discretion” and “sound judgment” of the sort district courts typically exercise
in the context of criminal sentencing and restitution more broadly.
Id. at 459-62, 134 S. Ct. at 1728-29. The Supreme Court
then expressly identified “a variety of factors district courts might consider” in determining a proper restitution amount for
possession.

Id. at 459-60, 134 S. Ct. at 1728 (emphasis added).

As a starting point, the Supreme Court suggested that district courts “determine the amount of the victim's losses caused by the
continuing traffic in the victim's images.”
Id. at 460, 134 S. Ct. at 1728 (emphasis added). Then, to determine the defendant
possessor's relative role in causing those general losses, the district court could consider factors such as: (1) “the number of
past criminal defendants found to have contributed to the victim's general losses”; (2) “reasonable predictions of the number
of future offenders likely to be caught and convicted for crimes contributing to the victim's general losses”; (3) “any available
and reasonably reliable estimate of the broader number of offenders involved (most of whom will, of course, never be caught
or convicted)”; (4) “whether the defendant reproduced or distributed images of the victim”; (5) “whether the defendant had
any connection to the initial production of the images”; (6) “how many images of the victim the defendant possessed”; and (7)
“other facts relevant to the defendant's relative causal role.”

Id.

The Supreme Court reiterated that these factors should not be used as a “rigid formula,” but should instead serve as “rough
guideposts” in determining a restitution amount for the possessor criminal defendant.
Id. The Supreme Court noted that
“[t]his approach is not without its difficulties,” as it “involves discretion and estimation,” but “courts can only do their best to
apply the statute as written in a *1327 workable manner.” Id. at 462, 134 S. Ct. at 1729. The Supreme Court emphasized that
district courts regularly exercise wide discretion, and there was “no reason to believe they cannot apply th[is] causal standard ...
in a reasonable manner.”

Id. 4

27a

27a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

17

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

VI. STANDARD OF REVIEW
[2]

[3] We review de novo the legality of a restitution order, but review for clear error the factual findings underlying that

order.
United States v. McDaniel, 631 F.3d 1204, 1207 (11th Cir. 2011); see also
United States v. Osman, 853 F.3d
1184, 1188 (11th Cir. 2017). We review the amount of the district court's restitution award only for an abuse of discretion. See
United States v. Robertson, 493 F.3d 1322, 1330 (11th Cir. 2007); see also Paroline, 572 U.S. at 459, 134 S. Ct at 1727-28
(emphasizing that “determining the proper amount of restitution” involves “the use of discretion and sound judgment” on the
part of the district court).
[4] [5] A district court abuses its discretion if it applies an incorrect legal standard, follows improper procedures, or makes
clearly erroneous findings of fact. United States v. Jordan, 582 F.3d 1239, 1249 (11th Cir. 2009). The abuse of discretion standard
recognizes that the district court has a range of choices, and this Court will not reverse the district court's choice as long as its
decision does not amount to a clear error of judgment. Id.
Osman, our only published post-

Paroline restitution decision to date, did not address how the abuse of discretion standard

applies in assessing whether the district court adequately considered the

Paroline factors and imposed a reasonable restitution

award. See generally
Osman, 853 F.3d at 1189-92. But
Paroline itself provides some important clues. In
Paroline, the
Supreme Court emphasized that determining the proper restitution amount “involves the use of discretion and sound judgment”
in a manner akin to that exercised “in the wider context of criminal sentencing,” and that the ultimate award must be “reasonable
and circumscribed.”

Paroline, 572 U.S. at 459, 134 S. Ct. at 1727-28; see also

id. at 462, 134 S. Ct. at 1729 (explaining that

“[d]istrict courts routinely exercise wide discretion ... in sentencing as a general matter” and should likewise apply
causal standard “in a reasonable manner”). And to guide the district court's exercise of its discretion, the
identified a number of factors district courts may consider in fashioning an appropriate restitution award.
S. Ct. at 1728.
[6]

[7]

Paroline’s

Paroline Court
Id. at 459-60, 134

Paroline thus established a framework not unlike the one we apply in assessing the reasonableness of a defendant's

sentence, in which we look to see whether the district court appropriately exercised its sentencing discretion in light of the
U.S.C. § 3553(a) factors. See, e.g.,

18

Gall v. United States, 552 U.S. 38, 51, 128 S. Ct. 586, 597, 169 L.Ed.2d 445 (2007);

United States v. Irey, 612 F.3d 1160, 1188-91 (11th Cir. 2010) (en banc). In that
§ 3553(a) context, we evaluate whether
the district court failed to consider relevant factors, improperly weighed the relevant *1328 factors, or considered improper
factors, and ultimately assess whether, under the totality of the circumstances, the sentence is reasonable. See
Irey, 612 F.3d
at 1189. And we will vacate a sentence imposed by the district court only if we are “left with the definite and firm conviction
that the district court committed a clear error of judgment in weighing the
outside the range of reasonable sentences dictated by the facts of the case.”

§ 3553(a) factors by arriving at a sentence that lies
Id. at 1190 (internal quotation marks omitted).

[8] Additionally, in sentencing cases, we do not require district courts to make detailed findings or give a thorough explanation
for the sentence it chose. See

id. at 1194-95. Specifically, “[t]he district court need not state on the record that it has explicitly

considered each factor and need not discuss each factor,”
United States v. Dorman, 488 F.3d 936, 938 (11th Cir. 2007), “so
long as the record reflects the court's consideration of many of those factors,” United States v. Carpenter, 803 F.3d 1224, 1232

28a

28a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

18

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

(11th Cir. 2015). “Rather, an acknowledgment by the district court that it has considered the defendant's arguments and the
3553(a) factors will suffice.”

§

Dorman, 488 F.3d at 938.

[9] A similar approach makes sense here. As in the sentencing context, in evaluating child pornography restitution awards
under Paroline, appellate courts must determine whether the district court appropriately exercised its broad discretion in light
of the facts of the particular case and awarded restitution in an amount that comports with the particular defendant's conduct.
See

Paroline, 572 U.S. at 458-59, 462, 134 S. Ct. at 1727-29;

Irey, 612 F.3d at 1190. And as in the sentencing context,

a number of relevant factors guide the district court's exercise of its discretion. See

Paroline, 572 U.S. at 459-60, 134 S. Ct.

at 1728;
Gall, 552 U.S. at 51, 128 S. Ct. at 597. Furthermore, the Supreme Court in
Paroline indicated that the exercise
of discretion at issue in child pornography restitution cases is similar to that exercised in criminal sentencing more generally.
See
[10]

Paroline, 572 U.S. at 459, 134 S. Ct. at 1727-28.
[11] Accordingly, in reviewing child pornography restitution awards under

whether, in light of the

Paroline, this Court should consider

Paroline factors, the district court arrived at a restitution amount that lies within the general range

of reasonable restitution awards dictated by the facts of the case. See

Irey, 612 F.3d at 1190. In doing so, this Court should

give due deference to the district court's determination that the
Paroline factors, on the whole, justify the restitution amount
awarded and should not vacate an award unless left with the definite and firm conviction that the district court committed a clear
error of judgment in setting the award amount. See

id.;

Gall, 552 U.S. at 51, 128 S. Ct. at 597. Moreover, so long as the

district court acknowledges that it has considered the Paroline factors and the defendant's arguments regarding restitution, we
will not vacate a restitution award solely on the basis that the district court did not address each factor explicitly. See Carpenter,
803 F.3d at 1232;

Dorman, 488 F.3d at 938.

With these principles in mind, we turn now to Rothenberg's disaggregation argument, which is a legal challenge to the district
court's restitution order that we review de novo.

Osman, 853 F.3d at 1188.

VII. DISAGGREGATION
[12] On appeal, Rothenberg first argues that, as to all nine victims, the district court failed to “disaggregate” their losses.
Rothenberg contends that
Paroline requires district courts to engage in disaggregation at two levels: first, by disaggregating
*1329 the portion of the victim's losses caused by the original abuse; and second, by disaggregating the losses caused by the
defendant from those caused by other possessors or distributors.
Rothenberg asserts that the district court here failed at the first level by relying on total loss estimates for each victim that did
not separate out and deduct the losses caused by the original abuser. Because the expert reports did not disaggregate the losses
caused by the original abuser from those caused by the distributors or possessors, Rothenberg contends that the district court
was required to conduct that separating out itself. Rothenberg maintains that the district court also failed to disaggregate at the
second level by failing to use the amounts of the prior restitution orders against other defendant possessors or distributors for
the same victims as a guidepost for determining his relative level of culpability.

29a

29a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

19

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

The government responds that nothing in

Paroline requires district courts to engage in the sort of formal disaggregation

Rothenberg envisions. Rather, the government contends that

Paroline simply requires that the district court consider the

Paroline factors and exercise its discretion in determining the amount of a victim's losses caused by the instant defendant.
The government submits that the district court here complied with those requirements, explicitly stating it was not holding
Rothenberg accountable for the original abuse or distribution of the victims’ images and setting restitution amounts that “best
approximat[ed] Rothenberg's relative role.”
This Court has not yet addressed whether, in awarding restitution post- Paroline, district courts first must formally
disaggregate a victim's losses between the original abuser, distributors, and subsequent possessors. Several of our sister circuits,
however, have grappled with that question, and the results are mixed.
A. Eighth and Fifth Circuits’ Decisions
We start with the Eighth Circuit's decision in United States v. Bordman, 895 F.3d 1048, 1058-59 (8th Cir. 2018), cert. denied,
2019 WL 1886056, ––– U.S. ––––, 139 S.Ct. 1618, ––– L.Ed.2d –––– (U.S. Apr. 29, 2019), a restitution case involving a
defendant convicted of only possessing child pornography. In
Bordman, the Eighth Circuit expressly held that a district
court is not required to formally disaggregate categories of loss before ordering restitution, such as the loss caused by the initial
abuser.

Id. at 1058-59.

In doing so, the Eighth Circuit affirmed the district court's $3,000 award of restitution to a victim where the district court
considered multiple factors, including: (1) the 1/n method, which took into account the number of defendants (32) who had
already paid the victim restitution plus 1 (the defendant Bordman), for a total of 33; (2) the child pornography being videos
with two copies of the same video in different folders; and (3) the “very aggravating factor” of the nature of the video.
Id.
at 1052-53, 1059. The victim's losses included $91,900 in therapy, related expenses, and for a vocational assessment and
counseling, legal costs of 10,187.13, and attorney's fees. Id. at 1052. At the sentencing hearing, the government took the sum
of $95,295.71 ($91,900 plus one third of the attorney's fees) and divided it by 33 defendants, resulting in the sum of $2,887.75.
Id. at 1052-53. One-third of the attorney's fees was used because this same attorney had represented three victims.
1052. The district court imposed a $3,000 restitution amount for the victim.

Id. at

Id. at 1054.

On appeal, the defendant-possessor Bordman specifically claimed that “the district *1330 court abused its discretion by failing
to disaggregate the harm caused by the initial abuse from the harm that his later possession caused.”
that claim, the Eighth Circuit reasoned that “one of the

Id. at 1058. In rejecting

Paroline factors already accounts for disaggregation”—namely,

“whether the defendant had any connection to the initial production of the images.” Id. at 1059 (quoting Paroline, 572 U.S.
at 460, 134 S. Ct. at 1728). The Eighth Circuit “decline[d] to transform” this disaggregation factor “from a ‘rough guidepost’
into a ‘rigid formula.’ ”

Id. (quoting

Paroline, 572 U.S. at 460, 134 S. Ct. at 1728).

The Fifth Circuit also has rejected, under plain error review, a defendant's challenge to restitution awards that relied on
psychological reports that “did not separate the losses caused by [the defendant possessor] from the losses caused by other
abusers.”

United States v. Halverson, 897 F.3d 645, 654-55 n.4 (5th Cir. 2018). The Fifth Circuit reasoned that nothing in

Paroline clearly required victims to present a new psychological report in each case that “disaggregates a defendant's conduct
from all other possible sources of the victim's losses.”
Id. The Fifth Circuit approved the district court's use of a restitution
method which awarded each victim (1) a base $5,000 amount of restitution, plus (2) an additional sum of $1,409 for each image

30a

30a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

20

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

of the victim that the defendant possessed because the district court discussed factors that bore on the relative significance of the
defendant's conduct and the district court was not required to make findings as to all of the

Paroline factors.

Id. at 653-54.

B. Fourth and Seventh Circuits’ Decisions
While not directly ruling on the initial-abuser-disaggregation issue, two other decisions of our sister circuits bear mentioning.
That is because both decisions, post- Paroline, (1) emphasized the district court's wide discretion inherent in determining the
amount of restitution, (2) affirmed restitution awards under various methodologies against possessors of child pornography,
and (3) refused to impose more structure beyond the Supreme Court's multi-factored test. See United States v. Dillard, 891
F.3d 151, 160-62 (4th Cir. 2018) (noting that
that “[p]ost-

Paroline did not set any “evidentiary minimums” for establishing restitution,

Paroline, our sister courts of appeals have approved of various methods of determining a restitution award,”

and that “[d]istrict courts have great discretion in selecting an appropriate methodology”);
United States v. Sainz, 827 F.3d
602, 605-07 (7th Cir. 2016) (discussing the district court's ability to employ varying methodologies, including the 1/n method,
to calculate a restitution amount under

Paroline and stating that “the bottom line here is that the amount of the award is

substantively reasonable”). We discuss Dillard and Sainz in detail, as they demonstrate not only how to apply the Paroline
factors, but also a common-sense, practical approach to restitution for victims whose losses are caused by the continuing traffic
in their child pornography images.
In the Fourth Circuit's Dillard decision, while the defendant was the initial abuser of one child victim, he also possessed images
of other child victims with whom he had no contact. Dillard, 891 F.3d at 154. The district court denied all restitution to the noncontact victims because the record contained no evidence that the victims were aware Dillard had their images and no evidence
connecting the non-contact victims’ harm to Dillard. Id. at 156. In reversing, the Fourth Circuit explained Paroline disavowed
any such requirements. Id. at 159-60. The Fourth Circuit held the “[g]overnment satisfied its burden of causation *1331 by the
uncontested evidence that Dillard's offense conduct included the seven non-contact victims’ images” and “that these victims
have outstanding losses caused by the continuing traffic in those images.” Id. at 160 (internal quotation marks omitted).
As to how to calculate those non-contact victims’ losses caused by Dillard, the Fourth Circuit said the district court “ ‘might,
as a starting point, determine the amount of the victim's losses caused by the continuing traffic in the victim's images’ ” and
“ ‘then set an award of restitution in consideration of factors that bear on the relative causal significance of the defendant's
conduct in producing those losses.’ ” Id. at 160 (quoting

Paroline, 572 U.S. at 460, 134 S. Ct. at 1728). The Fourth Circuit

remanded for the district court to consider the
Paroline factors and award at least some “non-nominal amount of restitution”
for the losses of the non-contact victims whose images Dillard possessed. Id. at 161-62. Where it was “uncontested that the
individuals seeking restitution were Dillard's victims and had outstanding losses associated with the continued trade in their
images, they were entitled by statute to some non-nominal amount of restitution.” Id. at 161 (citing
458-60, 134 S. Ct. at 1727-28).
Similarly, the Seventh Circuit's decision in

Paroline, 572 U.S. at

Sainz stresses the district court's “considerable discretion in deciding the extent

of a defendant's restitution” who possessed child pornography.

Sainz, 827 F.3d at 605. The defendant Sainz possessed six

images of the victim that had circulated widely on the internet, but had no role in creating or distributing them.
Id. at 604.
The victim had “incurred financial losses such as future lost earnings, attorney fees, and medical and psychiatric expenses” that
totaled $1.1 million.
Id. at 604, 605 n.1. On appeal, the defendant Sainz did not challenge that he must pay some amount of
restitution but argued that the $8,387.43 amount he was ordered to pay was “disproportionate to his relative role in causing”
the victim's losses.

Id. at 604-05. Sainz also claimed “he was not a legal cause of [the victim's] harm because hundreds or

31a

31a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

21

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

thousands of others also possessed the images, so she would have been harmed by others even if he had never possessed the
images of her.”

Id. at 604.

Using the 1/n method advocated for by the government, the district court divided the total loss of $1.1 million by 136 because
defendant Sainz was the 136th offender who was prosecuted and ordered to pay restitution. See

id. at 605. By possessing

and viewing the victim's images, Sainz had re-victimized her and made her feel that the abuse was continuing.

Id. at 604.

In finding no legal error or abuse of discretion in the $8,387.43 restitution award, the Seventh Circuit affirmed and reasoned:
(1) that the Supreme Court in
Paroline “avoided rigid or mechanical rules” and left the district courts with “considerable
discretion”; (2) the amount of restitution for a possessor like Sainz “should be neither ‘severe’ nor a ‘token or nominal amount’
Paroline does not require “district courts to consider in every case every factor mentioned” and the district court does

”; (3)

“not err by not addressing every

Paroline factor” 5 ; and (4) the

Paroline factors are permissive, not mandatory *1332

Id. at
and provide “rough guideposts” that “district courts might consider in determining a proper amount of restitution.”
605-07 (internal quotation marks omitted). The Seventh Circuit recognized that the 1/n method is not appropriate for all cases
because, when n is “very small or very large, a more nuanced method may be required.”
Id. at 607. The Seventh Circuit
concluded, however, that the application of the 1/n method to Sainz's case “resulted in a reasonable restitution order of $8,400
for an offender who possessed six images of the victim and indisputably contributed to her harm.”

Id.

We acknowledge that the defendant Sainz did not ask the court to disaggregate the losses from the initial abuser. Nonetheless,
the Seventh Circuit's decision is instructive because it emphasizes that (1) the district court has “considerable discretion,” (2)
the court's method of restitution calculation can vary from case to case depending on the facts, and (3) “the bottom line” is
that the district court's award of $8,387.43 was “substantively reasonable” for the defendant possessor Sainz, even though there
were hundreds of other possessors of the same victim's images. See

id. at 604-607.

C. Ninth and Tenth Circuits’ Decisions
In contrast to these decisions, the Ninth and Tenth Circuits have determined that district courts must engage in some level of
disaggregation as to the harms caused by the original abuse versus the harms caused by later distributors and possessors before
awarding restitution against a particular possessor of child pornography. See
2015);

United States v. Galan, 804 F.3d 1287 (9th Cir.

United States v. Dunn, 777 F.3d 1171 (10th Cir. 2015). But even those post-

Paroline decisions are nuanced and

do not adopt a rigid, mathematical rule in that regard. Furthermore, the facts of the Tenth Circuit's
to understand what the Tenth Circuit did or did not conclude in that case.
In

Dunn case are important

Dunn, one victim sought restitution of $583,955, which represented her total losses minus the amount of restitution already

received from other defendants. See

Dunn, 777 F.3d at 1174, 1179. Because Dunn was a distributor of the images, the district

court determined that “he should be held jointly and severally liable for the entirety of [the victim's] injuries.”
Id. at 1179.
The victim's total losses were $1,330,015, and the district court held Dunn responsible for $583,955 of those total losses as the
amount not yet paid. See

id. at 1181.

In reversing, the Tenth Circuit emphasized that the district court held the defendant Dunn liable for all of the victim's unpaid
losses, including those caused by the initial abuser, and erred by not assessing Dunn's individual relative role in the causal
process underlying the victim's losses. See

id. at 1181. The Tenth Circuit concluded: “[T]o the extent that the district court

32a

32a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

22

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

relied on an expert report that did not disaggregate [the harms caused by the original abuser], the district court's adoption of
$1.3 million as the total measure of damages cannot stand.” Id. at 1182. 6 *1333 The disaggregation conclusion in Dunn
must be read in the factual context of a reversal of a district court's ruling that a defendant was jointly and severally liable
with all other defendants, including the abuser, for the entirety of the victim's $1,330,015 total losses, minus only what other
defendants had already paid. We read

Dunn as requiring disaggregation in that case because the defendant was held jointly

and severally liable with the abuser for the entirety of the losses; we do not read
and every restitution case.
Unlike

Dunn’s recounting of the restitution facts, the Ninth Circuit's decision in

Dunn as requiring disaggregation in each

Galan does not indicate the amounts of

Galan, 804 F.3d at 1288. Rather,
Galan recounts only these two
the victim's losses or even the restitution award at issue.
facts: (1) the defendant Galan was not the victim's original abuser, who “made images of his disgusting crimes against [the
victim] over an extended period” of time; and (2) that abuse ended about 11 years before Galan possessed the images. See

id.

In reversing, the Ninth Circuit went much further than the Tenth. The Ninth Circuit held “that in calculating the amount of
restitution to be imposed upon a defendant who was convicted of distribution or possession of child pornography, the losses,
including ongoing losses, caused by the original abuse of the victim should be disaggregated from the losses caused by the
ongoing distribution and possession of images of that original abuse, to the extent possible.”

Id. at 1291. The Ninth Circuit

concluded “that Galan should not be required to pay for losses caused by the original abuser's actions.”
Id. at 1290. The
Ninth Circuit determined, in effect, that some type of calculation should be made between original abusers on the one hand and
the distributors and possessors on the other. See

id. at 1288, 1290.

Importantly, however, the Ninth Circuit cautioned that it “express[ed] no opinion about what portion of the victim's ongoing loss
should be attributable to an original abuser.”
Id. at 1291. It also did not instruct how the disaggregation calculation should
be done, and it even added that “[i]f the ultimate apportionment is not scientifically precise, we can only say that precision is
neither expected nor required.”

Id.

D. Our Analysis
[13] [14] After careful review of
Paroline, we conclude that a district court is not required to determine, calculate, or
disaggregate the specific amount of loss caused by the original abuser-creator or distributor of child pornography before it
can decide the amount of the victim's losses caused by the later defendant who possesses and views the images.

Paroline

requires no such disaggregation. Certainly, Paroline directed district courts to hold a defendant accountable only for his own
individual conduct and set a restitution “amount that comports with the defendant's relative role” in causing the victim's general
losses. See Paroline, 572 U.S. at 454-55, 458-59, 134 S. Ct. at 1725, 1727. How a district court arrives at that figure is largely
up to the district court, so long as the number is a “reasonable and circumscribed award” that is “suited to the relative size” of
the defendant's causal role in the entire chain of events that caused the victim's loss.
[15] In arriving at that figure,

Id. at 459, 134 S. Ct. at 1727.

Paroline does require some consideration by the *1334 district court of whether the defendant

possessor was also an abuser-creator or a distributor. See
id. Indeed, that is why
Paroline includes among its list of
relevant factors “whether the defendant had any connection to the initial production of the images,” and “whether the defendant

33a

33a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

23

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

reproduced or distributed images of the victim.” Id. at 460, 134 S. Ct. at 1728. But those factors do not require that the district
court make fact findings about the amount of losses caused by different groups of offenders.
[16] To be clear, the district court should ensure that its restitution order relates only to the amount of harm and loss caused
by the defendant possessor. But

Paroline also repeatedly stresses the flexibility and broad discretion district courts have

in arriving at such a reasonable restitution amount. See, e.g.,
id. at 459, 134 S. Ct. at 1727-28 (“[A] court must assess as
best it can from available evidence the significance of the individual defendant's conduct in light of the broader causal process
that produced the victim's losses. This cannot be a precise mathematical inquiry and involves the use of discretion and sound
judgment.”);
id. at 459-60, 134 S. Ct. at 1728 (“[I]t is neither necessary nor appropriate to prescribe a precise algorithm
for determining the proper restitution amount at this point in the law's development. Doing so would unduly constrain the
decisionmakers closest to the facts of any given case.”);

id. at 460, 134 S. Ct. at 1728 (“These factors need not be converted

into a rigid formula .... They should rather serve as rough guideposts for determining an amount that fits the offense.”);
id.
at 462, 134 S. Ct. at 1729 (stating, “the approach articulated above involves discretion and estimation,” and “courts can only
do their best to apply the statute as written in a workable manner”).
Paroline’s flexible, discretionary framework to require
[17] Like the Eighth Circuit, we think it would be inconsistent with
district courts to perform an initial, formal step of calculating and then separately assigning a total loss amount to the initial
abuser, then one to the distributors and possessors generally, and only then one to the particular defendant possessor. Rather, even
if a victim's total loss estimate includes losses caused both by the original abuser-creator, the distributors, and other possessors,
the district court need only indicate in some manner that it has considered that the instant defendant is a possessor, and not
the initial abuser or a distributor, and has assigned restitution based solely on the defendant possessor's particular conduct and
relative role in causing those losses. See

id. at 458-62, 134 S. Ct. at 1727-29.

Here, the district court did exactly that. In its restitution order, the district court explicitly found up front that “there is no evidence
with respect to any victim that [Rothenberg] reproduced or distributed images of the victim or that he had [a] connection to
the initial production of the images.” The district court expressly stated that it had “taken these factors into consideration in
assigning [Rothenberg] a relative role as the proximate cause of these victims’ losses.” And in setting each individual award, the
district court reiterated that Rothenberg “neither created nor distributed” the victim's image. Under
We therefore reject Rothenberg's disaggregation argument.

Paroline, that is enough.

[18] Before concluding, we recognize that the Supreme Court in
Paroline did note in dicta that “[c]omplications may arise
in disaggregating losses sustained as a result of the initial physical abuse, but those questions may be set aside for present
purposes.” Id. at 449, 134 S. Ct. at 1722. We do not read this dicta, which is *1335 contained in a parenthetical, as requiring
in any way that the district courts in possessor cases take on the job of determining the harm and loss caused by the initial abuser
or the distributors. 7 Rather, the district court's job is to determine the defendant possessor's causal role in the general losses
caused by his participation in the ongoing traffic in the victim's images.
[19] We likewise reject Rothenberg's argument that the district court erred in creating restitution disparities between himself and
other possessors by “impos[ing] restitution in amounts substantially above the average [for other possessors] without providing
any explanation at all.” We recognize that the Supreme Court in
Paroline listed as a factor “the number of past criminal
defendants found to have contributed to the victim's general losses” and noted that the government “could also inform district
courts of restitution sought and ordered in other cases.” See
id. at 460, 462, 134 S. Ct. at 1728-29. However, the Supreme
Court did not require district courts to dive into the facts of every past order and position their restitution findings in relation

34a

34a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

24

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

to those of other courts. See

id. The district court is not required to say why it did not follow or disagreed with restitution

orders as to the same victim imposed by other courts. Paroline requires no such fact findings or analysis. Rather, the number
of past criminal defendants and their restitution amounts, even as to the same victim, are just one of many factors the district
court considers generally without having to make mathematical calculations. 8 See

id.

VIII. SUFFICIENCY OF THE EVIDENCE
A. McGarity
[20] Rothenberg's next argument concerns victims Sierra, Jane, Sarah, Vicky, Amy, and Casseaopeia. 9 As to these six victims,
Rothenberg argues that the district court erred in relying on loss estimates that were based on psychological evaluations
conducted before his arrest and thus before these victims learned of his criminal possession offense, citing this Court's prior
precedent in

United States v. McGarity, 669 F.3d 1218 (11th Cir. 2012). The government responds that the portion of

McGarity on which Rothenberg relies was overruled by
*1336 In

McGarity, which was decided prior to

Paroline.

Paroline, this Court concluded that a psychological evaluation performed

before the defendant's arrest and prosecution could not show the harm to the victim.
669 F.3d at 1269. More specifically,
for proximate cause to exist in a child pornography case, “there must be a causal connection between the actions of the enduser and the harm suffered by the victim.” Id. The McGarity Court determined that, in that case, the government failed to
provide any basis for determining “whether [the defendant's] possession of child pornography proximately caused any of [the
victim's] harm,” given the victim's psychological evaluation occurred before the defendant's arrest and prosecution.
As such, the

Id.

McGarity Court determined that the psychological evaluation could not show the harm caused to the victim by

the particular defendant's conduct in that case. Id. at 1269-70 (citing with approval the Second Circuit's decision in United
States v. Aumais, 656 F.3d 147, 154 (2d Cir. 2011), that remarked that the victim's psychological evaluation preceded the
defendant's arrest, and thus it could not demonstrate the impact on the victim caused by that defendant). In other words, the
McGarity Court concluded that to establish proximate cause, the government must show that the victim actually learned of
the particular defendant's possession of her images. See

id. at 1269-70.

We agree with the government that this aspect of
McGarity was abrogated by
Paroline. See
United States v. Archer,
531 F.3d 1347, 1352 (11th Cir. 2008) (“[A] prior panel's holding is binding on all subsequent panels unless and until it is
overruled or undermined to the point of abrogation by the Supreme Court or by this court sitting en banc.”). In requiring to
show harm that the victim was aware of a particular defendant's conduct, the
McGarity Court essentially required that the
government establish a direct, but-for causal link between some portion of the victim's losses and the specific defendant's
offense. See

McGarity, 669 F.3d at 1269-70. As discussed above, however,

or but-for causation requirement in setting out its new standard. See

Paroline rejected exactly that sort of direct

Paroline, 572 U.S. at 450-59, 134 S. Ct. at 1722-28. In

Paroline, the Supreme Court recognized that “it is not possible to prove that [a victim's] losses would be less (and by how
much) but for one possessor's individual role in the large, loosely connected network through which her images circulate,” nor is
there “a practical way to isolate some subset of the victim's general losses that [the defendant's] conduct alone would have been

35a

35a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

25

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

sufficient to cause.”

Id. at 450-51, 134 S. Ct. at 1723. Nevertheless, the Supreme Court explained that “it is indisputable that

[the defendant] was a part of the overall phenomenon that caused [the victim's] general losses.”

Id. at 457, 134 S. Ct. at 1726.

Paroline, the Supreme Court thus held that, “[i]n this special context” where it is clear both that the defendant
[21] In
possessed images of the victim and that the victim has outstanding losses as a result of the traffic in her images, “but where it is
impossible to trace a particular amount of those losses to the individual defendant,” courts should order restitution “in an amount
that comports with the defendant's relative role in the causal process that underlies the victim's general losses.”
Id. at 458,
134 S. Ct. at 1727. The Supreme Court held that the government need not establish that some specific portion of the victim's
McGarity had required. See
id.;
McGarity, 669
losses were directly caused by the defendant possessor's conduct, as
F.3d at 1269. Rather, the government need establish only that the victim suffered losses from the traffic in her images and that
the defendant contributed to those losses *1337 by possessing her images, regardless of whether the victim was specifically
aware of the defendant's conduct.

Paroline, 572 U.S. at 458, 134 S. Ct. at 1727; see also

id. at 442, 450, 134 S. Ct at 1718,

Paroline was and that none of her claimed losses
1723 (noting that the parties “stipulated that the victim did not know who
flowed from any specific knowledge about him or his offense conduct,” and the victim therefore could not show her losses
“would have been any different but for Paroline's offense”).
We therefore conclude that the portion of

McGarity’s holding requiring the government to show that a child pornography

victim was aware of, and specifically harmed by, a particular defendant possessor's conduct was abrogated by
See

Paroline.

Archer, 531 F.3d at 1352. Consequently, Rothenberg's challenge to the restitution awards for six victims—Sierra, Jane,

Sarah, Vicky, Amy, and Casseaopeia—based on that portion of

McGarity fails. 10

B. Mya and Jenny
Next, as to victims Mya and Jenny, Rothenberg argues the government failed to submit reliable or sufficient evidence of
their losses because neither of those victims had psychological or economic reports detailing their losses. In opposition, the
government asserts that it need not submit expert reports to establish a victim's losses and that the evidence presented in support
of Mya's and Jenny's restitution requests provided a sufficient basis for the district court's awards. 11
[22] The government bears the burden of proving the restitution amount by a preponderance of the evidence.
Osman, 853
F.3d at 1189. The government must do so “with evidence bearing sufficient indicia of reliability to support its probable accuracy.”
Id. (internal quotation marks omitted). Nevertheless, because “the determination of the restitution amount is by nature an
inexact science,” a district court “may accept a reasonable estimate of the loss based on the evidence presented.”
quotation marks omitted).

Id. (internal

1. Mya
[23] Regarding Mya, the district court did not clearly err in determining that sufficient evidence supported Mya's restitution
request. One of Mya's counsel, Carol Hepburn, submitted a signed declaration stating Mya needed therapy and/or medical care.
Rothenberg faults the district court for accepting the “self-serving” estimate provided by Mya's counsel that Mya's future medical
costs would likely exceed $100,000. In her declaration, Hepburn explained that the $100,000 estimate was not just pulled out
of thin air. Rather, it was based on Hepburn's experience representing eight other, similarly situated child pornography victims.
Indeed, the restitution exhibits presented to the district court show that Hepburn represented or co-represented several of the

36a

36a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

26

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

other victims *1338 in this case—Sierra, Pia, Sarah, and Vicky. Considering Hepburn's demonstrated experience in this area,
it was not unreasonable for the district court to consider her estimate as reliable evidence of Mya's likely future costs. See

id.

[24] Furthermore, counsel Hepburn explained that Mya was part of the same child pornography series as Pia. Though a
psychological evaluation was unavailable for Mya at the time of the restitution hearing, 12 her co-victim Pia was able to submit
a preliminary evaluation. That evaluation indicated that, at a bare minimum, Pia had estimated therapy costs of $81,900 and
emphasized that this estimate reflected “only the current, most critical needs” for Pia, who like Mya was still a minor, and
did not account for the full extent of her losses or the services she would require over the course of her lifetime. And notably,
Rothenberg does not challenge the evidentiary basis for Pia's restitution award in this case. That Mya's co-victim Pia had
preliminary estimated costs of at least $81,900 is a further indicator that counsel Hepburn's $100,000 total cost estimate for Mya
id. On this record, we are not left with a definite and
was reasonable and appropriately relied upon by the district court. See
firm conviction that the district court was mistaken in concluding that sufficient evidence supported Mya's restitution request.
See

Robertson, 493 F.3d at 1330.

[25] Nor did the district court abuse its broad discretion in awarding Mya her requested restitution amount of $5,000. See
Here, the district court properly identified

id.

Paroline as the correct legal standard for awarding restitution in child pornography

cases. In setting the amount of Mya's restitution award, the district court addressed several relevant
Paroline factors, noting
that: (1) Rothenberg possessed one image of Mya; (2) no other defendant was yet ordered to pay restitution to Mya; (3) Mya
had estimated losses exceeding $100,000; and (4) Rothenberg neither created nor distributed Mya's images.
Paroline, 572
U.S. at 460, 134 S. Ct. at 1728. In light of these factors, the district court determined that Mya's $5,000 restitution request was
reasonable. Given the wide discretion afforded by
was unreasonable. See

Paroline to district courts in this context, we cannot say this determination

id. at 462, 134 S. Ct. at 1729; Jordan, 582 F.3d at 1249.

2. Jenny
[26] Based on the more limited record as to Jenny, we agree with Rothenberg that the district court clearly erred in determining
there was sufficient evidence to support Jenny's $42,600 request. In support of her restitution request, Jenny's counsel submitted
a restitution cover letter and a victim impact statement from Jenny. In the letter, Jenny's counsel requested restitution in the
following amounts: (1) $12,500 to pay for psychological and economic reports; (2) $5,000 in attorney's fees related to her
request in this case; (3) $100 in legal fees related to her request in this case; and (4) $25,000 for “the defendant's *1339
appropriate share of the general losses caused to Jenny.”
Like Mya, at the time of the restitution hearing, Jenny was still in the process of obtaining expert reports documenting her
total losses. Unlike Mya, however, Jenny's separate counsel did not provide any reasonable estimate of what those total losses
might be. Indeed, counsel did not provide any estimate of what Jenny's total losses might be. Rather, in asserting that $25,000
was Rothenberg's “appropriate share” of Jenny's losses, counsel relied on (1) a proposed statute that would set a minimum
restitution award of $25,000 for possession of child pornography, and (2) Masha's law,
18 U.S.C. § 2255(a), which creates
a civil cause of action for victims who suffered personal injury as a result of a child pornography offense and sets a liquidated
damages amount of $150,000.
This evidence is sufficient to show that Jenny has incurred costs of $17,600—to pay for expert reports and legal fees—in
connection with her restitution request in this case, 13 yet it is not sufficient to establish what proportion of Jenny's as-yetundetermined total losses Rothenberg proximately caused. Jenny's counsel suggested that the $150,000 liquidated damages
amount in Masha's Law represents a reasonable estimate by Congress of the minimum amount of total damages suffered by a
child pornography victim. But the damages available to a plaintiff in a civil lawsuit may be quite different from the concrete

37a

37a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

27

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

“costs incurred” for which § 2259 provides recompense. See 18 U.S.C. § 2259(c)(2). For example, a plaintiff in a civil damages
suit under
§ 2255(a) may be able to recover for noneconomic losses, such as pain and suffering or mental and emotional
distress, that are not available in a restitution proceeding under § 2259. See Doe v. Hesketh, 828 F.3d 159, 170 (3d Cir. 2016).
As such, we do not see that Masha's Law provides much guidance in the present context.
Similarly, Jenny's counsel's reliance on proposed legislation setting a minimum $25,000 restitution award for child pornography
possession offenses also provides little to no guidance here. While Congress certainly would be well within its rights to establish
such a mandatory minimum restitution amount in these cases, it had not done so at the time of Rothenberg's restitution hearing. 14
Thus, the district court was required to instead follow

Paroline’s framework, which requires an individualized assessment of

each particular defendant's restitutionary liability based on his conduct and relative role in the causal process.
Paroline, 572
U.S. at 445, 458-59, 462, 134 S. Ct. at 1720, 1727-29. Imposing a pre-set minimum amount of restitution based solely on the type
of offense Rothenberg committed does not comply with
Paroline’s framework, and the government did not submit evidence
from which the district court reasonably could have determined that $25,000 was Rothenberg's relative share of Jenny's losses.
It is indisputable that Jenny has suffered some, likely large amount of losses from the online traffic in her images. See
id.
at 457, 134 S. Ct. at 1726. It is also *1340 indisputable that Rothenberg, who possessed 34 images and 1 video of Jenny, is
responsible for some, possibly significant amount of those losses.

Id. But the government bears the burden of proving at

least a reasonable estimate of that amount based on reliable evidence, and it has not satisfied that burden here.
Osman, 853
F.3d at 1189. In the absence of competent evidence to support the award, the district court clearly erred in ordering Rothenberg
to pay $42,600 in restitution to Jenny. See

id.

We therefore vacate the district court's restitution award as to Jenny and remand for further proceedings consistent with this
opinion. On remand, the district court should allow Jenny to supplement her restitution request with evidence of her losses.
See

18 U.S.C. § 3664(d)(5) (allowing a victim to seek an amended restitution order if the victim discovers additional losses

after sentencing). The district court should then determine, in light of all the available evidence and the
portion of Jenny's losses for which Rothenberg is responsible.

Paroline factors, the

Paroline, 572 U.S. at 458-60, 134 S. Ct. at 1727-28.

IX. CONCLUSION
For the foregoing reasons, we affirm the district court's restitution order as to victims Sierra, Jane, Pia, Mya, Sarah, Vicky, Amy,
and Casseaopeia, and vacate and remand the district court's restitution order as to victim Jenny.
AFFIRMED in part; VACATED and REMANDED in part.
All Citations
923 F.3d 1309, 27 Fla. L. Weekly Fed. C 1943

Footnotes

38a

38a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

28

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

1
2

3

4

Throughout we refer to how many images of a victim Rothenberg had. Each of the images recounted in this case were
child pornography, and for brevity sometimes we refer to them simply as “images.”
Though the district court admitted the restitution exhibits into evidence at the restitution hearing, it did not scan and file
those exhibits on the district court docket. On appeal, Rothenberg filed an unopposed motion to supplement the record
to include those exhibits, which this Court granted.
Since Rothenberg's guilty plea and restitution hearing, Congress amended 18 U.S.C. § 2259, effective December 7,
2018. See Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299, 132 Stat.
4383 (2018). All citations in this opinion are to the previous version of 18 U.S.C. § 2259, which was in effect both when
Paroline was decided and at the time of the district court's restitution order in this case.
Three of the four dissenting justices were not so sure and complained that “[w]hen it comes to [the defendant's] crime
—possession of two of [the victim's] images—it is not possible to do anything more than pick an arbitrary number” as
“the amount of the loss sustained by a victim as a result of” the defendant's crime.
Paroline, 572 U.S. at 463, 134 S.
Ct. at 1730 (Roberts, C.J., dissenting). The fourth dissenter, Justice Sotomayor, would have embraced the victim's joint
and several liability theory, holding each possessor liable for restitution in the full amount of the victim's losses.
at 473, 134 S. Ct. at 1735 (Sotomayor, J., dissenting).

5

The Seventh Circuit explained some of the
Paroline factors refer to information that may not be “reliably known,”
such as “the number of offenders likely to be convicted in the future or the broader numbers of offenders who were
involved but are unlikely to be caught.”
made clear in

6

Id.

Sainz, 827 F.3d at 607. The Seventh Circuit stated that “the Supreme Court

Paroline that the difficulty of coming up with reasonable estimates for an indeterminate number of

other offenders should not be a barrier to all compensation for victims of child pornography.”
Id.
Though it has not addressed whether district courts must disaggregate, the First Circuit has held that a district court
order comported with
Paroline’s framework where it “excluded past costs and based its award on an estimate of [the
victim's] future therapy costs, occasioned by defendant's conduct.” United States v. Rogers, 758 F.3d 37, 39 (1st Cir.
2014). The district court also “limited the losses to general losses from ‘continuing’ traffic” in the victim's images and
“distinguished the future therapy losses attributable to defendant from the harm resulting from other viewers and from
[the victim's] therapy needs relating to [the original abuser].” Id. The First Circuit commented that the district court's
$3,150 restitution award “represent[ed] the cost of 18 therapy visits,” but the district court “noted that 50 visits would
also have been a reasonable conclusion.” Id. The mere fact that this type of formal disaggregation is permissible under

7

Paroline, however, does not mean that it is required.
We acknowledge that the Ninth Circuit concluded that the set-aside statement in this parenthetical meant the Supreme
Court “plainly perceived a need for separation” of losses from the initial abuser and the later possessor defendants.
Galan, 804 F.3d at 1290. However, we read the dicta in this parenthetical sentence not in isolation, but in the context
surrounding it, which to us signals that in possessor cases a court is not required to delve into the special losses caused
by the original abuser. Rather, in possessor cases, the court is examining only the general losses caused by the continuing
traffic in the pornographic images and awarding restitution that comports with the defendant possessor's relative role as a

8

possessor. In our view, nothing in Paroline requires disaggregation, and everything in Paroline suggests otherwise.
In this case, the government's submission and calculations used the 1/n method, but only as a starting point for the
district court's exercise of discretion and then application of the
Paroline factors. While we affirm the thorough and
multifactored process used in this case, we caution that the application of a strict 1/n approach, in which the only thing
the district court does is divide the total loss amount by the total number of defendants who have been ordered to pay

9

restitution, ordinarily will not meet the individualized assessment requirement of
Paroline.
On appeal, Rothenberg does not challenge the evidentiary basis for victim Pia's $5,000 restitution award.

39a

39a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

29

United States v. Rothenberg, 923 F.3d 1309 (2019)
27 Fla. L. Weekly Fed. C 1943

10

11

The government asserts that Rothenberg did not specifically raise this before-my-arrest argument in the district court, and
it should be reviewed only for plain error. We need not decide that issue; regardless of the standard of review, this claim
Paroline overruled this part of
McGarity and
Paroline was decided before Rothenberg's offense.
fails because
We disagree with the government's contention that Rothenberg did not preserve his challenge to Mya's and Jenny's
restitution awards on the ground that they were not supported by competent evidence. Accordingly, we review the factual
findings underlying the district court's restitution orders as to Mya and Jenny for clear error,
1188, and the amount of their restitution awards for an abuse of discretion, see

12

13

14

Osman, 853 F.3d at

Robertson, 493 F.3d at 1330; see also

Paroline, 572 U.S. at 462, 134 S. Ct at 1729 (recognizing that “[d]istrict courts routinely exercise wide discretion ...
in fashioning restitution orders”).
In challenging Mya's and Jenny's awards, Rothenberg also argues that a victim must always supply an expert medical or
psychological report to support her restitution request. Rothenberg cites no caselaw for this proposition, and nothing in
either Paroline or our own precedent establishes such a rigid requirement. See Osman, 853 F.3d at 1189 (requiring
only that the government present evidence “bearing sufficient indicia of reliability”). Though such expert reports are
undoubtedly helpful to district court's in fashioning a restitution award, they are by no means the only way to establish
a reasonable estimate of a victim's losses.
We note that the 12,500 portion of those costs for psychological and economic reports would not necessarily be fully
attributable to Rothenberg, as Jenny will, unfortunately but undoubtedly, need to use those reports in support of future
requests against other defendants.
Congress recently passed, and the president signed, a different version of the bill Jenny's counsel referred to, but that
version sets the minimum restitution amount much lower, at $3,000. See Amy, Vicky, and Andy Child Pornography
Victim Assistance Act of 2018, Pub. L. No. 115-299, 132 Stat. 4383 (2018).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

40a

40a U.S. Government Works.
© 2020 Thomson Reuters. No claim to original

30

APPENDIX D

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 1 of 16

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA

CASE NO . 16-60054-CR-ZLOCH
UNITED STATES OF AMERICA ,

Plaintiff,
VS .

O R D E R

DAVID ROTHENBERG,

Defendant .

/
THIS MATTER is before the Court upon the Restitution Hearing ,
held in the above-styled cause on Novernber 18, 2016 . The Court has
carefully reviewed the entire court fi1e herein and is otherwise
fully advised in the premises .
Defendant David Rothenberg pled guilty and was sentenced as to

Count 6 of the Superseding Indictment (DE 31) for violation of 18
U .S.C . 5 2252 (a) (4) (b) for possession of material involving the
sexual exploitation of m inors .

Pursuant to 18 IJ.S .C . 5 2259,

restitution is mandatory . 5 2259 (b)(1) (A)- (B).

The November 18

hearing addressed the restitution amounts for the victims .

For the

purpose of this section, victims are awarded nthe fu1l am ount of

(theirj losses,'' which are defined by the section to include :
(A)

medical

services

relating

psychiatric, or psychological care ;

(B)

physical

and

occupational

to

physical,

therapy

or

rehabilitation;
(C) necessary transportation, temporary housing, and
child care expenses;
(D) lost income ;

(E) attorney's fees, as well as other costs incurred;
and

(F) any other losses suffered by the victim as a
proximate result of the offense .

41a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 2 of 16

(A)-(F). In accord with 18 U.S.C. 3664(e), ''Any dispute as to
the proper amount or type of restitution shall be resolved by the
court

by

the

preponderance

demonstrating the amount

of

the

evidence .

The

burden

of

the loss sustained by a victim as a

result of the offense shall be on the attorney for the Government . ''

See 18 U.S.C. f 2259(:)(2).
Ten victim s of Defendant's crime have been identified .

At the

hearingr the Government stated that one of the victim s, Angela, has
withdrawn her request for restitution from Defendant .

15-17.

DE 69, p . 5,

For eight of the remaining victims, restitution is

mandatory, but the Government and Defendant do not agree as to the

amount .

As to one additional victim , even though the Government

and Defendant agree to an amount of restitution, victim 's counsel
seeks a higher amount .l
The

Government

and

Defendant

agree

that

restitut ion

is

mandatory under the statute and that the Court is bound by United

States v. Paroline, l34 S. Ct. 1710 (2014) for guidance--or the
lack thereof--as to how to determine the am ount of restitution for
which a possessor of material involving the sexual exploitation of
m inors must be held responsible.
When describing the purpose of restitution, the Court in

Paroline noted that even though ''ltlhe primary goal of restitution
is rem edial or compensatory,'' ''it also serves punitive purposes . ''
The Government and Defendant agree to a restitution amount of $2,000 for
Jenny, of whom Defendant possessed 34 images and 1 video . But the Court will
perform the Paroline analysis for Jenny because the victim does not agree with
this amount.

2

42a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 3 of 16

13( S.Ct . 1710, at 1726 (further citations omitted).

As to the

determination of the amount of restitution, first , the Paroline

Court held that MRestitution is therefore proper under : 2259 only
to the extent the defendant's offense proximately caused a victim's
losses .''

Id . at

1722.

Next, the Court described how such

proximate cause should be assessed :

In this special context, where it can be shown 50th that
a defendant possessed a victim 's images and that a victim
has outstanding losses caused by the continuing traffic
in those images but where it is impossible to trace a
particular amount of those losses to the individual
defendant by recourse to a more traditional causal
inquiry, a court apolying 5 2259 should order restitution
in an amount that comoorts with the defendant 's relative
role in the causal Drocess that underlies the victim 's
general losses. . . . The required restitution would be
a reasonable and circum scribed award imposed in
recognition of the indisputable role of the offender in
the causal process underlying the victim ls losses and
suited to the relative size of that causal role . This
would serve the twin goals of helping the victim achieve
eventual restitution for a11 her child-pornography losses
and
impressing
upon
offenders
the
fact
that
child-pornography crimes, even simple possession, affect
real victims .

Id. at 1727 (emphasis added). Finally, the Court addressed ''the
question of how district courts should go about determ ining the
proper amount

restitution .''

Id .

Within this discussion, no

less than three times, the Court opines about the inexactitude of

this decision left to the ndiscretion and sound judgment'' of the
district

court : that

this

ncannot be

a precise mathematical

inquiry,'' that na precise algorithm for determ ining the proper
restitution amount'' nis neither necessary nor appropriatey'' and

that the nfactors need not be converted into a rigid formula . '' Id .
3

43a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 4 of 16

at 1727-28. And, nttlhere are a variety of factors district courts
might consider

determining a proper amountr'' and district

courts, again, um ight, as a starting point , determine the am ount of

the victim's losses caused by the continuing traffic in the
victim 's

images

then

consideration of factors

set

an

award

of

restitution

in

. which could include'':

the number of past crim inal defendants found to have
contributed to the victim 's general losses; reasonable
predictions of the number of future offenders likely to
be caught and convicted for crimes contributing to the
victim ls general losses; any available and reasonab ly
reliable estimate of the broader number of offenders

involved (most of whom will, of course, never be caught
or convicted); whether the defendant reproduced or
distributed images of the victim ; whether the defendant
had any connection to the initial production of the
images; how m any images of the victim the defendant
possessed; and other facts relevant to the defendant 's
relative causal role .

Id. (emphasis added). While this list of suggested factors seems
to offer some aid in apportioning losses, the Court in Paroline
does not even pretend to grapple with the difficulty of examining
how these factors would be applied .

For example, looking to the

first factor--nthe number of past criminal defendants found to have

contributed to the v ictim 's general losses''--how should this number
assist the Court

arriving

a restitution amount?

On the one

hand, as with some of the victims in the above-styled cause ,

a

large number of defendants have paid restitution, so perhaps the

Court should decide that the victim has already recouped a large
proportion of her losses .

On the other hand , perhaps a large

number of criminal defendants who have contributed might indicate

44a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 5 of 16

the Court that the number of future offenders or broader

offenders is also great and that the victim 's image is being

frequently distributed in such a way that greater losses will
result . As to the factor about how many images of the victim the

defendant possessed, it is exceedingly difficult to understand this
factor's import to assessing any one defendant's relative role .
Thus, left not only with no formula

algorithm , but with two

nmightrs'' and a ncould include,'' this Court will , as directed,
exercise its discretion

deciding how much of these rem aining

nine victims' losses were proximately caused , and thus, comport
with the possession of their images by Defendant .

chief Justice Roberts's dissenting opinion expressed
concerns about the analysis detailed above : nWhen

comes to

Paroline's crime- -possession of two of Amy's images- -it is not

possible to do anything more than pick an arbitrary number for that
'amount .' And arbitrary is not good enough for the crim inal law .''

S.Ct. 1710, 1730 (Roberts, C.J., dissenting).

The Dissent

concludes that the problem of arbitrariness is found initially

the statute and comments that while the majority's interpretation
may produce a nsalutary outcome,'' this result does not mean that

nCongress has done justice for victims of child pornography.'' ;à.
at 1735 (Roberts, C.J., dissenting) (''The statute as written allows
no recovery; we ought to say so, and give Congress a chance to fix

it .'').

45a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 6 of 16

Although
discussion

he

marshaled

the

argument

support

of

his

the appropriate tenure for judges, Alexander

Hamilton's observation that ''Etlo avoid an arbitrary discretion in

the courts'' is of utmost import for the provision of justice
because

is indispensable that they should be bound down by

strict rules and precedents, which serve to define and point out
their duty in every particular case that comes before them .'' The

Federalist No. 78 (Alexander Hamilton). Here, there are no strict
rules, and arb itrary discretion has been given free range as
district courts undertake such an untethered analysis of the amount
of any victim 's harm which has been proxim ately caused by any one

Defendant in these complicated and sordid chains of exploitation .
The possession of these images by Defendant

a significant

link in the exploitation chain . Possessors of the victims' images
perpetuate the harm of the initial abuse and provide a market for
distributors who seek to profit from this abuse .

Victims are

plagued by significant costs, some of them monetary, often for the

rest of their lives .

No court will ever be able to make these

victims whole, regardless of the amount of restitution which is

awarded . The psychological harm and loss to these victim s, many of
whom were very young children when the initial abuse occurred ,
involved

total

destruction

of

childhood

innocence .

As

to

Defendant 's specific role in the abuse that has occurred, due to
the demand for child pornography by individuals such as this

6

46a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 7 of 16

Defendant, many victim s in the above-styled cause have commented
specifically about the continuing harm of the presence of their
images on the internet, as will be noted below .

This continuing

availability is largely proximately caused by distributors and by

possessors, such as this Defendant . While committing their crime,

possessors of child pornography likely have no way of anticipating
the amount and degree of continuing harm they proximately cause to
these victims .

The Paroline Court's attempt to divide responsibility among
those who harm these victims has left the Court with so much
discretion that it appears that other than awarding a victim his or

her full amount of a11 dam ages from a single defendant, no abuse of
this discretion would be possible or discernible by any reviewing
court .

Even the list of factors set forth in Paroline is hardly

definitive, requisite , or even applicable

every case .

And,

application of these factors is certainly not required by Paroline .
Any court

the position of parceling out the restitution costs

m ight come up with different or new factors or might balance any

relevant considerations differently . Noting all of the above, the
Court unequivocally states that with respect to each of the victim s
discussed

individually below,

has assigned

restitution

Defendant in a manner that comports with his relative role and has
awarded

no

more

dam ages

proximately caused to each

than

the

Court

deem s

these individuals.

7

47a

him

have

no case has

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 8 of 16

the Court attempted to hold Defendant responsible for a1l losses
sustained by any victim .
As

two of the Paroline factors, the Court notes that there

is no evidence with respect to any victim that Defendant reproduced
or distributed images of the victim or that he had connection to

the initial production of the images . The Court has taken these
factors into consideration in assigning him a relative role as the
proximate cause of these victims' losses.

Defendant

possessed

one

image

of

Victim

Sierra .

The

Government, in agreement with the victim's counsel, requests

$10,000.

The Court has carefully considered Exhibits

submitted by the Government .

and

Exhibit D reflects that a small

number of crim inal defendants have paid restitution to Sierra, and
Exhibit C describes the severity of her current condition : nShe is
on five different medications and yet, still her condition is
unstable .

She

suicidality .''

Hepburn,

Exh .

required

em ergency

treatment

for

Letter from Sierra 's attorney, Carol

Her projected costs of care is over $600,000.

Exhibit
Sharon

recently

Letter from Developmental and Forensic Pediatrician,

Cooper, p .

The Court finds that,

consideration of

her large amount of total costs, the small number of contributing
offenders,

and

a

request

for

a

proportion

of

these

costs

proximately caused and to be paid by Defendant , who neither created

nor distributed her image, that $10,000 is a reasonable request
8

48a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 9 of 16

under the Paroline analysis and factors .

Defendant w ill pay to

Victim Sierra restitution in the amount of $10,000.

Defendant

possessed

Government , in

$3,000.

four

images

agreement with

Victim

Jane .

The

the victim 's counsel, requests

Defendant suggests that an appropriate amount is $800.

The Court has carefully considered Exhib its E and F submitted by
the Government . Exhibit F reflects that a small number of crim inal

defendants have paid restitution to Jane. Included in Exhibit E is
her Victim Impact Statement, in which Jane specifically addresses
how the existence of the images of her abuse on the internet

affects her : nKnowing people are watching what happened gives me a
mix

anxiety , sadness, anger and

wasn 't out there,

disgusts m e .

If

wouldn't be as fearful as I am now .'' Exhibit

E, Victim Impact Statement, p .

In this statement , Jane isolates

the harm that has been proximately Caused by POSSeSSOrS, and a1SO
distributors, of her images from the harm caused by the original
abuse .

The estimate of her future therapy and m edical care is

$101,027.

Exhibit E, Smith Economics Group, Ltd. Report, p.

The Court finds that, in consideration of her medical costs, the
small number of

contributing

offenders, and a

request

for a

proportion of these costs to be paid by Defendant, who neither

created nor distributed her images, that $3,000 is a reasonable
request under the Paroline analysis and factors .

Defendant will

pay to Victim Jane restitution in the amount of $3,000.

9

49a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 10 of 16

Defendant possessed fourteen images of Victim Pia .

The

Government, in agreement with the victim's counsel, requests

$5,000. Defendant suggests that an appropriate amount is $1,100.
The Court has carefully considered Exhibit G submitted by the
Government . No exhibit reflects the number of criminal defendants

who have paid restitution to Pia .

The Government notes that her

counsel has indicated that one other defendant has been ordered to
pay restitution to Pia . Included in Exhibit G is an assessment of
current,

critical

needs

expenses,

including

therapy

and

transportation, over the next 20 years, which totals $81,900.
Exhibit

Letter from Marsha A . Hedrick, PhD, ABPP, P .

The

Court finds that , in consideration of her total costs, the fact
that she has only received restitution from one other defendant ,

the large number of images possessed by Defendant of this victim ,
and a request for a proportion of these costs

be paid by

Defendant , who neither created nor distributed her im ages , that

$5,000 is a reasonable request under the Paroline analysis and
factors .

Defendant will pay to Victim Pia restitution in the

amount of $5,000.
Defendant possessed one image of Victim Mya . The Government

requests $500, but the victim's counsel seeks $5,000. The Court
has carefully considered Exhibit H submitted by the Government . No
exhibit reflects the number of criminal defendants who have paid
restitution to Mya, and the Governm ent notes that her counsel has

10

50a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 11 of 16

not indicated that other defendants have been ordered to pay
restitution to Mya . While her future medical expenses have not yet
been established , Exhibit

states that a reasonable treatment

estimate for the victim would be costs in excess of $100,000. Exh.
Letter from Mya's attorney, Deborah A . Bianco, p .

finds that,

The Court

consideration of her total costs, the fact that she

has not received any restitution at this time, and a request for a
proportion of these costs to be paid by Defendant , who neither

created nor distributed her images, that $5,000 is a reasonable
request under the Paroline analysis and factors.

Defendant will

pay to Victim Mya restitution in the amount of $5,000.
Defendant

possessed

six

images

of

Victim

Sarah .

The

Government requests $7,895, but the victim's counsel seeks $25,000.
The Court has carefully considered Exhibits I and

the Government .

Exhibit

submitted by

reflects that over 150 criminal

defendants have paid restitution to Sarah .

Included in Exhibit J

is her V ictim Impact Statement , in which Sarah, like some of the
other victims of Defendant 's crime, specifically addresses how the

existence of the images of her abuse on the internet affects her:
''Every time someone else sees pictures or videos of me
like they are the ones who hurt me to begin with .
they are the ones who did this to me

It feels like

Anyone who looks is

keeping my pain going for the rest of my life .'' Exhibit
Impact Statement , p .

feels

Victim

In this statem ent, Sarah , like Jane,

11

51a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 12 of 16

isolates the harm that has been proximately caused by possessors of

her images from the harm caused by the original abuse . Assessments
for her psychiatric care alone, including various suggested forms

of therapy are provided in ranges, but could cost nearly $300,000.
Exhibit

Forensic Psychological Examination, pp . 32-33 .

The

Court finds that , in consideration of the amount of costs, the fact
that many other offenders have been required to pay restitution to
this

Victim--which

contributes

in

the

case

of

Sarah,

the

Court

finds

a finding that the request is reasonable and

acknowledged by many other courts- -the large number of images

possessed of this Victim , and a request for a proportion of these
costs proximately caused and to be paid by Defendant, who neither

created nor distributed her image, that $20,000 is an appropriate
amount under the Paroline analysis and factors. Defendant will pay

to Victim Sarah restitution in the amount of $20,000.
Defendant possessed one image of Victim Vicky . The Government

requests $1,283, but the victim's counsel seeks $10,000. The Court
has carefully

considered

Exhibits

and

submitted

by

the

Government . Exhibit L reflects that over 600 criminal defendants
have paid restitution to Vicky. The Government suggests the number
higher, because

counsel

for

Vicky

advises

that

over

8OO

restitution awards have been entered . Included in Exhibit K is her
Victim Impact Statement, in which V icky also specifically addresses
how the existence of the images

52a

her abuse on the internet

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 13 of 16

affects her : HI live everyday with the horrible knowledge that m any
people are watching the most terrifying moments of my life and

taking grotesque pleasure in them .

Unlike other form s of

exploitation , this one is never ending .'' Exhibit K, Updated Victim
Impact Statement, December 2011, p .

this statement , Vicky

explains the harm that has been proximately caused by possessors
and distributors of her im ages as opposed to the harm caused by the

original abuse .

$100,000. Exhibit

Vicky's therapy is predicted

to cost over

Psychological Status Report Summary

18. The Court finds that, in consideration of the amount of costs,
fact that m any other offenders have been required

Pay

restitution to this Victim--which in the case of Vicky, the Court
finds contributes

a finding that the request is reasonable and

acknowledged by many other courts- -and a request for a proportion
of these costs proximately caused and

be paid by Defendant, who

neither created nor distributed her image, that $9,000 is an
appropriate

amount under the

Paroline

analysis

and

factors.

Defendant will pay to V ictim Vicky restitution in the amount of

$9,000.
Defendant possessed one image of Victim Amy . The Government

requests $15,664, but the victim 's counsel seeks $25,000.

The

Court has carefully considered Exhibits M and N subm itted by the
Government .

Exhibit N reflects that over 200 criminal defendants

have paid restitution to Amy . Included in Exhib it M is her V ictim

13

53a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 14 of 16

Impact Statement,

which Amy states : ''Every day of my life I live

in constant fear that someone will see my pictures and recognize me
and that I will be humiliated all over again . It hurts me to know
someone is looking at them
powerless

want

just like

stop

al1 stopped .

was powerless

But I am

stop Ethe

original abuseq.'' Exhibit M, Victim Impact Statement, p. 1. This
statement provides strong support for the different and separate
harm that possessors proximately cause to victim s such as Am y.

Defendant caused this harm by possessing and viewing Amy's image .
His actions specifically contribute to her psychological damage .

Amy's counseling and therapy costs could be over $500,000. Exhibit
M , Smith Economics Report, Table

The Court finds that, in

consideration

the large amount of costs, the fact that other

offenders

been

have

Victim- -which,

required

again,

contributes to a

finding

the

to

pay

case

of

restitution
Amy,

that the request

to

Court

this
finds

is reasonab le and

acknowledged by other courts--and a request for a proportion
these costs proximately caused and to be paid by Defendant , who

neither created nor distributed her image, that $23,000 is an
appropriate

amount

under

the

Paroline

analysis

and

factors.

Defendant will pay to Victim Amy restitution in the amount

$23,000.
Defendant possessed thirty-four images and one video of Victim
Jenny . The Government and Defendant agree that this victim should

14

54a

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 15 of 16

receive restitution in the amount of $2,000; however, the victim's
counsel seeks $42,600. The Court has carefully considered Exhibits
and P submitted by the Government . Exhibit P suggests that only

one other criminal defendant has paid restitution to Jenny . While
the Court has less documentation of Jenny's p sychological and

medical expenses as compared with some other victim s in this case,
and even though the Government and Defendant agree as to the

correct amount of restitution owed to this victim , the Court finds

that $2,000

an insufficient amount .

consideration of the

extremely large number of images Defendant possessed of this
Victim , her costs, the fact that only one other defendant has so
far contributed to these costs, and a request for a proportion of
these costs

be paid by Defendant , who neither created nor

distributed her
reasonable

images, the Court finds that

request

under

the

Paroline

analysis

$42,600 is a
and

factors.

Defendant will pay to Victim Jenny restitution in the amount of

$42,600.
Defendant possessed two images of Victim Casseaopeia .

The

Government requests $21,563, but the victim's counsel seeks
$25,000.

The Court has carefully considered Exhibits R and Q

submitted by the Government .

Exhibit R reflects that over

criminal defendants have paid restitution to Casseaopeia .

Her

projected costs of care is over $300,000. Exhibit Q, Assessment of
Vocational

Potential, Future Medical Care Needs And

15

55a

Econom ic

Case 0:16-cr-60054-WJZ Document 70 Entered on FLSD Docket 05/09/2017 Page 16 of 16

Damages At Present Value, p . 43.

The Court finds that , in

consideration of her costs, the number of contributing offenders,
and a request for a proportion of these costs proximately caused

and to be paid by Defendant , who neither created nor distributed

her image, that $25,000 is a reasonable request under the Paroline
analysis and factors.

Defendant will pay to Victim Casseaopeia

restitution in the amount of $25,000.
Accordingly , after due consideration , it is
ORDERED >Hn ADJUDGED as follows:
Defendant's Judgment will be amended to reflect restitution

in the amount of $142,600 is owed by Defendant, to be apportioned
to the nine victims discussed above in the amounts specified above;
and
The Judgment will additionally be amended to reflect that
the Court recommends a federal facility

south Florida .

DONE AND ORDERED in Chambers at Fort Lauderdale , Broward
County, Florida, this

A

ee day of May, 2017.

WILLIAM J . ZLOCH

Sr . United States District Judge
Copies furnished :
A11 Counsel and Parties of Record
U .S . Probation

16

56a

